<html>
<title> - COMBATING TERRORISM: INDIVIDUAL PROTECTIVE EQUIPMENT FOR U.S. FORCES, INVENTORY AND QUALITY CONTROLS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 COMBATING TERRORISM: INDIVIDUAL PROTECTIVE EQUIPMENT FOR U.S. FORCES, 
                     INVENTORY AND QUALITY CONTROLS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 21, 2000

                               __________

                           Serial No. 106-222

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                              ---------

                   U.S. GOVERNMENT PRINTING OFFICE
72-288                     WASHINGTON : 2001

_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH-HAGE, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
              R. Nicholas Palarino, Senior Policy Analyst
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 21, 2000....................................     1
Statement of:
    Johnson-Winegar, Anna, Deputy Assistant to the Secretary of 
      Defense, Chemical-Biological Defense, Department of 
      Defense; Major General John Sylvester, Deputy Chief of 
      Staff for Training, U.S. Army Training and Doctrine 
      Command, Department of Defense; Major General Earnest 
      Robbins, the Civil Engineer, Headquarters U.S. Air Force, 
      Department of Defense; Rear Admiral David M. Stone, Deputy 
      Director, Surface Warfare Division, U.S. Navy, Department 
      of Defense; and Major General Paul M. Lee, Jr., Commander, 
      Marine Corps Materiel Command, Department of Defense.......    89
    Mancuso, Donald, Deputy Inspector General, U.S. Department of 
      Defense, accompanied by Robert Lieberman, Assistant 
      Inspector General; Eleanor A. Wills, project manager; Carol 
      L. Levy, Deputy Director; and Susan T. Lynn, resident agent 
      in charge, New York Resident Agency, Defense Criminal 
      Investigative Service......................................    10
    Mongeon, Brigadier General Daniel G., Commander, Defense 
      Supply Center Philadelphia, accompanied by George Allen, 
      Deputy Commander, Defense Supply Center Philadelphia; and 
      Robert Kinney, Director, Individual Protection Directorate, 
      Natick Soldier Center, U.S. Army Soldier and Biological 
      Chemical Command...........................................    59
Letters, statements, etc., submitted for the record by:
    Biggert, Hon. Judy, a Representative in Congress from the 
      State of Illinois, prepared statement of...................     6
    Johnson-Winegar, Anna, Deputy Assistant to the Secretary of 
      Defense, Chemical-Biological Defense, Department of 
      Defense, prepared statement of.............................    91
    Kinney, Robert, Director, Individual Protection Directorate, 
      Natick Soldier Center, U.S. Army Soldier and Biological 
      Chemical Command, prepared statement of....................    72
    Lee, Major General Paul M., Jr., Commander, Marine Corps 
      Materiel Command, Department of Defense, prepared statement 
      of.........................................................   126
    Mancuso, Donald, Deputy Inspector General, U.S. Department of 
      Defense, prepared statement of.............................    15
    Mongeon, Brigadier General Daniel G., Commander, Defense 
      Supply Center Philadelphia, prepared statement of..........    61
    Robbins, Major General Earnest, the Civil Engineer, 
      Headquarters U.S. Air Force, Department of Defense, 
      prepared statement of......................................   108
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Stone, Rear Admiral David M., Deputy Director, Surface 
      Warfare Division, U.S. Navy, Department of Defense, 
      prepared statement of......................................   119
    Sylvester, Major General John, Deputy Chief of Staff for 
      Training, U.S. Army Training and Doctrine Command, 
      Department of Defense, prepared statement of...............    97

 
 COMBATING TERRORISM: INDIVIDUAL PROTECTIVE EQUIPMENT FOR U.S. FORCES, 
                     INVENTORY AND QUALITY CONTROLS

                              ----------                              


                        WEDNESDAY, JUNE 21, 2000

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2247, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Mica, Sanford, Biggert, and 
Schakowsky.
    Staff present: Lawrence Halloran, staff director and 
counsel; Nicholas Palarino, senior policy adviser; Jason Chung, 
clerk; Robert Newman and Thomas Costa, professional staff 
members; David Rapallo, minority counsel; and Earley Green, 
minority assistant clerk.
    Mr. Shays. I call this hearing to order. Welcome our 
witnesses, welcome our guests.
    When deploying United States forces confronted the threat 
of chemical and biological weapons in the Persian gulf war, 
they did so with inadequate protective gear, insufficient 
training, unreliable detectors and the haphazard use of 
vaccines and other medical countermeasures.
    In 1996, the General Accounting Office [GAO], concluded, 
that ``equipment, training and medical problems persist'' and 
were ``likely to result in needless casualties and degradation 
of U.S. warfighting capability.'' GAO noted that despite, 
``increased emphasis on chemical and biological defense, it 
continued to receive a lower level of emphasis at all levels of 
command than other tasks,'' and many field commanders had 
accepted a level of chemical and biological unpreparedness as 
an operational and fiscal given.
    So we continue our oversight of the chemical and biological 
defense program with these questions. Is the readiness of 
individual protective equipment a military priority today? 
Having placed top-level emphasis on the need for the anthrax 
vaccine, so-called ``medical body armor,'' against one agent, 
has the Department of Defense [DOD], been as attentive to the 
need for reliable masks and suits that protect against all 
toxins and agents?
    According to the DOD Inspector General, serious problems 
continue to plague the Pentagon approach to individual 
protective equipment. In short, DOD may not be able to find 
enough protective clothing when it's needed on the battlefield, 
and too many protective masks may not work when they get there. 
Despite unequivocal findings and recommendations by the IG, 
these issues have been consigned to years of bureaucratic 
quibbling and buck-passing within DOD.
    On November 2, 1994, the Inspector General recommended 
cyclic testing of all masks to address reported degradation of 
effectiveness over time in the field. Five years later, the 
joint service integration group found critical defects in more 
than half of 19,000 masks tested. But the DOD official in 
charge of the overall chemical and biological defense program 
says maintenance problems with field masks are the 
responsibility of the service branches. As of today, with the 
exception of the Marine Corps, the services have not undertaken 
the recommended mask surveillance and testing.
    In 1996, the IG cited the Defense Logistics Agency [DLA], 
for weak inventory management controls over protective suits. A 
1998 consolidation of depots storing protective suits only made 
matters worse. The practical impact of those weaknesses became 
all too clear when DLA tried to recall 700,000 suits supplied 
by a fraudulent vendor. Although long suspect, potentially 
defective suits have not been segregated from other inventory; 
it took DLA three times to find all the suits, some of which 
had been shipped, by then, to units in high-threat areas, 
contrary to previous DOD claims.
    If the availability and reliability of individual 
protective equipment were a military priority, these problems 
would have been addressed as quickly and as effectively as DOD 
fixes a rifle that overheats or an ammunitions shortage. The 
persistence and extent of protective mask failures suggest the 
problem and the solution go beyond training and maintenance by 
individual service members. Had the services not spent 6 years 
in denial, a technological or materiel solution could have been 
programmed to reduce required mask maintenance and made it 
rugged enough for battle.
    The threat of chemical and biological warfare is real and 
it is changing. U.S. forces must be protected to the maximum 
extent possible from a broad and growing list of toxins and 
agents. In terms of individual protection, only high-quality 
masks and suits will do that job. The current system of 
chemical and biological defense appears too willing to tolerate 
preventable equipment failures.
    At this time, I'd be happy to call on my colleague from 
Illinois, Judy Biggert.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T2288.001
    
    [GRAPHIC] [TIFF OMITTED] T2288.002
    
    Mrs. Biggert. Thank you, Mr. Chairman, and I would like to 
welcome those of you in uniform and thank you for the service 
to our country.
    Certainly, a strong national defense is essential. A strong 
national defense is the protector of freedom and the guarantor 
of our foreign policy. But if our country is to remain strong 
and relevant in the 21st century, we must ensure that America's 
armed services are never second best. To do that, we must 
ensure that our military personnel have the best, the safest 
and the most up-to-date equipment in the world.
    Despite the best intentions of our military, various 
reports indicate that, in some instances, our soldiers in the 
field are receiving defective or outdated equipment, namely, 
chemical protective suits. In fact, the Army recently found 
thousands of those defective suits stockpiled in Europe and 
Korea.
    Besides the defective suits, reports authored by the 
Department of Defense Inspector General show that the chemical 
protective masks also suffer major and critical defects. Should 
this equipment ever be used in defending against a chemical or 
biological attack our troops, would be at risk for illness, 
incapacitation or death.
    Almost as troubling has been the DOD's response to this 
information. It has been slow to implement actions recommended 
by the IG to correct the problems relating to the management, 
distribution and use of protective equipment.
    I'm not really here today to question the integrity or 
dedication of those who supply and train our military forces. 
In fact, I can say with much confidence that it's due to their 
efforts that the United States has had the best-equipped and 
best-primed military in the world. I'm also aware that the 
Department of Defense feels that U.S. forces are fully prepared 
to survive, fight and win a biological and chemical battle 
environment, and this is the reason we are gathered here today.
    Today's hearing presents the DOD with a strong opportunity 
to address the concerns that have been raised. So I'm eager to 
hear from the witnesses, and I also want to know if the 
soldiers in the field are aware of potential problems with this 
equipment or have reported faulty gear to the commanders.
    And finally, I trust that we will hear if the Department is 
following through with the IG's recommendations for improving 
inventory management, and I'm particularly anxious to know the 
extent to which the IG feels that fraud and abuse have 
permeated these permanent programs.
    So again, Mr. Chairman, I thank you for calling this 
important oversight hearing and I look forward to working with 
you and the individuals testifying today, and my colleagues, to 
strengthen the military as well as to ensure its effectiveness 
in the post-cold war era. Thank you.
    [The prepared statement of Hon. Judy Biggert follows:]

    [GRAPHIC] [TIFF OMITTED] T2288.003
    
    [GRAPHIC] [TIFF OMITTED] T2288.004
    
    [GRAPHIC] [TIFF OMITTED] T2288.005
    
    [GRAPHIC] [TIFF OMITTED] T2288.006
    
    Mr. Shays. I thank the lady.
    Our first panel is Mr. Don Mancuso, who is Deputy Inspector 
General, Office of the Inspector General, Department of 
Defense, accompanied by Mr. Robert Lieberman, Assistant 
Inspector General, and Ms. Carol L. Levy, Deputy Director, 
Defense Criminal Investigative Service, also of the Office of 
the IG. And what we will do first, let me just get rid of some 
housekeeping.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements in the record; 
and without objection, so ordered.
    At this time, I would welcome the three of you. And let me 
ask you, Mr. Mancuso, is there anyone else that might be 
providing information who should stand and be sworn in, or is 
it just the three of you for this panel?
    Mr. Mancuso. We have two individuals that we may turn to.
    Mr. Shays. So I'd ask them to stand and be sworn in, and 
then if they're asked to respond to any question, we don't have 
to give it again and then they can give their name to the 
transcriber.
    So if you five would stand, please.
    [Witnesses sworn.]
    Mr. Shays. For the record, all responded in the 
affirmative. Thank you.
    I just welcome Ms. Schakowsky from Illinois.
    And, Mr. Mancuso, what I'm going to do is, I'm going to 
give you 5 minutes. Then we're going to roll it over for 
another 5 minutes and ask you to conclude in 10 if you can.

 STATEMENTS OF DONALD MANCUSO, DEPUTY INSPECTOR GENERAL, U.S. 
    DEPARTMENT OF DEFENSE, ACCOMPANIED BY ROBERT LIEBERMAN, 
ASSISTANT INSPECTOR GENERAL; ELEANOR A. WILLS, PROJECT MANAGER; 
  CAROL L. LEVY, DEPUTY DIRECTOR; AND SUSAN T. LYNN, RESIDENT 
  AGENT IN CHARGE, NEW YORK RESIDENT AGENCY, DEFENSE CRIMINAL 
                     INVESTIGATIVE SERVICE

    Mr. Mancuso. I will certainly try to do that, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, thank you for 
the opportunity to appear before your subcommittee today. The 
Inspector General's Office shares your concerns with respect to 
the Department's inventories, quality controls and 
serviceability of equipment intended to protect our military 
forces from chemical and biological attacks. As you requested, 
I'll briefly summarize our efforts with respect to five audit 
reports and a criminal investigation involving chemical warfare 
suits and masks. My written statement contains considerable 
detail on each of these items.
    Let me begin by discussing our work on inventory management 
of chemical protective suits. In 1996, we conducted an audit of 
inventory records at the Defense Depot in Columbus, OH, and I 
would mention that on an annual basis as part of our financial 
statement audits we look at inventory, and it was during the 
course of such an audit that we had occasion to look at the 
inventory in Columbus.
    We selected 44 different types of items from a universe of 
about 268,000 different types of items that are maintained in 
that location in order to determine whether the inventory 
records matched the actual count that we would have observed as 
part of our audit. The 44 items included six types of chemical 
protective suits. Although the depot listed more than 2.1 
million such suits in our sample, the physical count identified 
major discrepancies; 400,000 fewer suits were on hand than 
reflected in the inventory records for locations listed as 
storing such suits. Conversely, we found nearly 700,000 
additional suits not listed on the inventory records that were 
stored in undocumented locations.
    Now I'll take a minute, Mr. Chairman, if you would, to 
explain that--a little bit because, to the layman, it doesn't 
appear to make much sense. The depots maintained by the Defense 
Logistics Agency--and there are approximately 20 of them--
contain a huge amount of materiel, and for that reason, it's 
extraordinarily important that they know exactly what they have 
there and where it should be located. They are hundreds of 
thousands of actual locations that are supposed to be very 
specifically marked, so that when they look in the inventory 
and they say they have 50,000 suits in location whatever, in 
fact those suits are there.
    And what we found is that many of the suits that were 
listed on inventories as belonging in a particular location did 
not exist in those locations; but after a more careful look 
around the depot, other suits were found that were in other 
undocumented locations.
    Since suits are such a critical war reserve item and the 
supply community must be able to respond rapidly and 
efficiently to requests for protective suits, we were quite 
surprised at the discrepancies that we found. Because these 
suits have a specified shelf life and require periodic 
inspections we had expected much-better-than-average controls. 
Instead, we found a series of poor inventory management 
practices.
    In response to our audit, the Defense Logistics Agency took 
action to regain inventory control for these suits. They 
advised us that all the suits had been located, inventoried and 
posted to inventory records by November 1997 and later 
transferred to the Defense Depot in Albany, GA. In 1999, 
however, we had occasion to conduct an audit, an inventory 
audit, at the Albany depot; and we discovered that instead of 
improving inventory management, the transfer to Albany had the 
opposite effect.
    The records for the one type of suit we audited were 
materially inaccurate. We also determined that during the 
transfer to Albany, the quantity of each of the 20 different 
types of protective suits on hand was never verified. As a 
result, we requested that the DLA conduct a wall-to-wall suit 
inventory. The DLA has notified us that that inventory is 
complete, and they'll be reporting out with a final report very 
shortly.
    During the audit, the auditors also determined that DLA had 
failed to alert all DOD users and had failed to segregate suits 
under contract from a company, called Isratex, where the 
contractor was under criminal investigation and we had found 
defects in these suits. That particular case was begun in 1993 
by our investigative staff, the Defense Criminal Investigative 
Service. They initiated an investigation of this company, 
Isratex, and a facility the company had in Puerto Rico for the 
company's production of coveralls and coats for the Department 
of Defense; and what the investigation uncovered is that the 
company was routinely substituting poor and inferior-quality 
items for those that had been previously presented to the 
quality inspectors for their review.
    In 1994, late 1994, the investigators also began to look at 
another Isratex facility in West Virginia, and that facility 
was producing chemical warfare suits; and in short order, we 
found the same types of deficiencies, because the same scheme--
relatively the same scheme--was being perpetrated by Isratex at 
the West Virginia location, and it involved chemical warfare 
suits. To put it in perspective, Isratex at that time had two 
contracts to produce nearly 800,000 suits for the Department of 
Defense at a cost of approximately $50 million.
    I'd also point out--and I'm a career criminal 
investigator--I have seen this scheme all too often, especially 
in the Department of Defense, although it certainly occurs 
anywhere in government where large volumes of materiel are 
purchased. In this case, the company repeatedly presented high-
quality, good items to the government inspector who accepted 
those items and, therefore, accepted the lot for shipment. The 
company then apparently removed those items, held them back--in 
this case, we call them special lots--and intentionally shipped 
off inferior quality goods with many, many serious defects.
    This type of scheme, as I said, occurs fairly frequently, 
and frankly over the last 15 years, we've probably prosecuted a 
few hundred contractors involved in this same type of scheme. 
In this case, though, the investigators, with the cooperation 
of the DLA quality inspectors, went into the company--this is--
again, I'm talking about the Puerto Rico end of it right now--
and marked some of these goods that were being presented for 
inspection. They surreptitiously marked them, so that they 
could be traced through the inventory chain, and sure enough, 
we found that the good items did not make it through the 
inventory chain, and again the low-quality items were being 
substituted. This, together with other evidence and witness 
testimony, resulted in the indictment and subsequent conviction 
of the company, its principal officers and several of its 
employees.
    Beginning in 1995, relating to this matter, we began a 
series of discussions and correspondence with DLA relative to 
the defects that we uncovered with the chemical warfare suits. 
Nonetheless, the suits remained in inventory. We were able, 
after some negotiation, to have DLA remove the suits under the 
second contract--the 1992 contract, which was the smaller 
contract--from inventory, and those items were actually 
segregated in approximately July 1995.
    DLA was reluctant to segregate the 1989 contract items. 
They weren't the specific target of our investigation nor were 
they eventually the specific items used to support the 
indictment. The DLA cited cost and other factors such as 
readiness factors, as reasons for not removing those suits from 
inventory. We also asked that they make proper notification to 
the units to whom defective suit potentially have been issued.
    Nonetheless, the 1989 suits remained in inventory. This is 
particularly troubling due to the serious nature of the 
defects, which included holes and open seams. DLA eventually 
made full notification to all users, involving all the suits, 
earlier this year and advised us, as of last month, that the 
1989 contract suits have been fully segregated.
    I'd add that much can and has been said as to the failure 
to take prompt and aggressive action in this case. Issues such 
as the cost of segregation, testing, perceived seriousness of 
the defects and the obvious impact on readiness have all been 
discussed and debated within the Department. I'd be remiss, 
however, if I didn't put it in some perspective for you. Again, 
having investigated and supervised this type of investigation 
over the years, I have worked extensively with DLA and have had 
occasion to turn to them frequently for help in segregating 
items or in conducting testing; and although this is an 
egregious situation as far as I'm concerned in the system, I 
would note that in the vast majority of instances, right up 
through today, DLA is quick to give assistance, is quick to 
support us with testing, is quick to segregate the items that 
we need for evidence. So I'm hopeful that we'll continue to be 
able to work with them to preclude a situation like this from 
reoccurring.
    Let me now turn to the topic of chemical masks and 
specifically to our 1994 and 1998 audit reports. Our 1994 work 
was completed in response to defense hotline allegations that 
related to the design, production serviceability and integrity 
of chemical protective masks. Inasmuch----
    Mr. Shays. You have another 5 minutes.
    Mr. Mancuso. I can finish in that amount of time, sir.
    Inasmuch as the 1994 reports are classified secret, they 
were classified by the Department, I'll be limited in the 
detail that I include in this open hearing.
    Mr. Shays. This is on the 1994 report?
    Mr. Mancuso. 1994 reports. We randomly selected as part of 
that review, M-17 and M-40 protective masks and had them tested 
by the Marine Corps Test and Evaluation Unit, using Army-
authorized equipment and test criteria. These were Army masks 
we were testing. The masks were tested for leaks and fit on a 
variety of mask testers. A visual inspection was also performed 
on all the masks to identify defects and missing parts.
    The problems indicated by our testing and other data 
collection were significant. We found deficiencies in mask 
design, production issues, acceptance testing, maintenance and 
also the lack of periodic testing of the fielded masks. While 
military equipment is what we call ``ruggedized,'' it would 
stand wear and tear and be able to function in difficult 
conditions, it is very difficult to design masks impervious to 
all environmental and operational forces. For this reason, it 
is a major challenge, but it's a necessary challenge, to 
address the area of preventive maintenance.
    We found that soldiers were simply not following prescribed 
procedures when performing maintenance nor were they reporting 
the requirements as required. As part of our audit, we asked 
soldiers to perform maintenance before they submitted their 
masks to us for inspection and testing. But even after this 
instruction, we found, through visual review, that many masks 
were reassembled improperly or were unserviceable.
    We believe that the adequacy of maintenance can best be 
determined by an aggressive program of periodic surveillance 
testing, whether the masks are in the hands of troops or in 
supply. At the time of our audit, only the Marines had such a 
testing program.
    As a result of our audits, a Joint Service Mask Technical 
Working Group was established in 1995 to conduct a full study. 
The study results, published in November of last year, included 
the testing of nearly 20,000 masks of which more than half were 
found to have critical defects.
    I believe actually a quarter of the masks passed, a quarter 
of the masks had major and minor defects, and half failed with 
critical problems. Although this study validated concerns 
raised in our 1994 audits, the Department rejected the study's 
recommendation for a centralized testing program. As a result, 
despite general agreement in the Department and the services as 
to the need for consistent testing procedures and criteria, the 
job of correcting the problem remains with the individual 
services.
    All services now acknowledge the need for continued mask 
surveillance and are taking appropriate implementation 
measures. Frankly, Congressman, we hear that all the time and I 
guess we will be back in a year or two to audit what actually 
occurs.
    Last, the subcommittee requested that I comment on an audit 
report that we issued in December 1998 relative to the M-41 
protective assessment test system capabilities. The report 
examined whether a combination of field level maintenance in a 
mask verified by the M-41 system was sufficient to assure mask 
readiness. Our review determined that the M-41 reliability as a 
combat readiness test is questionable. It does not test masks 
under realistic battlefield conditions. We also found problems 
with respect to operator training, equipment calibration and 
inconsistent testing criteria.
    In response to this report the Department has tasked the 
Army to provide input needed to develop new testing criteria. 
The Army has indicated as recently as this month that the 
services have agreed to new ``fit factor'' criteria, which is 
one of the testing criteria. However, we're still awaiting 
comments from the Department in this regard and we remain 
concerned about the lack of consistent serviceability testing 
and test criteria.
    In closing, I note that chemical and biological defense has 
long been a primary focus of IG readiness audits, and given the 
importance of fully addressing the management challenges in 
this area, we have attempted to maintain continuous coverage 
despite severe resource constraints.
    Thank you for considering the views of my office on these 
important matters, and that concludes my statement.
    [The prepared statement of Mr. Mancuso follows:]

    [GRAPHIC] [TIFF OMITTED] T2288.007
    
    [GRAPHIC] [TIFF OMITTED] T2288.008
    
    [GRAPHIC] [TIFF OMITTED] T2288.009
    
    [GRAPHIC] [TIFF OMITTED] T2288.010
    
    [GRAPHIC] [TIFF OMITTED] T2288.011
    
    [GRAPHIC] [TIFF OMITTED] T2288.012
    
    [GRAPHIC] [TIFF OMITTED] T2288.013
    
    [GRAPHIC] [TIFF OMITTED] T2288.014
    
    [GRAPHIC] [TIFF OMITTED] T2288.015
    
    [GRAPHIC] [TIFF OMITTED] T2288.016
    
    [GRAPHIC] [TIFF OMITTED] T2288.017
    
    [GRAPHIC] [TIFF OMITTED] T2288.018
    
    [GRAPHIC] [TIFF OMITTED] T2288.019
    
    [GRAPHIC] [TIFF OMITTED] T2288.020
    
    [GRAPHIC] [TIFF OMITTED] T2288.021
    
    [GRAPHIC] [TIFF OMITTED] T2288.022
    
    [GRAPHIC] [TIFF OMITTED] T2288.023
    
    [GRAPHIC] [TIFF OMITTED] T2288.024
    
    [GRAPHIC] [TIFF OMITTED] T2288.025
    
    [GRAPHIC] [TIFF OMITTED] T2288.026
    
    [GRAPHIC] [TIFF OMITTED] T2288.027
    
    [GRAPHIC] [TIFF OMITTED] T2288.028
    
    [GRAPHIC] [TIFF OMITTED] T2288.029
    
    Mr. Shays. Thank you very much. I note for the record that 
we are joined by Mr. Sanford and welcome him.
    I am going to read my summation of what I think your 
testimony is, and I want to ask if you would agree with--
whether you agree with whether my summation is an accurate 
summation of what you think you have said.
    Despite the growing threat, the business of protecting our 
forces from chemical and biological attacks have not been 
managed effectively and is vulnerable to fraud, waste and 
abuse. You basically find there is a lack of inventory control 
over chemical protective suits at the Defense Logistics Agency. 
This is a problem because protective chemical suits are a 
critical war reserve item.
    The managers of the company, Isratex, Inc., conspired to 
provide defective chemical protective suits to the Department 
of Defense. Although DLA knew of problems with the company, it 
took several years before agreeing to stop shipping potentially 
defective suits to our military forces. In 1994, your office 
uncovered problems with the serviceability and integrity of 
chemical protective masks already in use. To some extent the 
problems are attributable to design and production problems, 
while other aspects of the problems are attributed to training 
and field maintenance checks. Despite your recommendations for 
corrective action, these problems persist today.
    Those problems persist in part because the services have 
resisted some of your recommendations and no single DOD office 
has exercised sufficient oversight authority to make the 
changes you recommended.
    Now, that is what we have taken from your oral and written 
testimony. Is that essentially your testimony?
    Mr. Mancuso. It is essentially correct. I would add, I 
really don't know what the current status is on the inventory 
of chemical warfare suits. I have not seen their most recent 
inventory. Theoretically they had an all-encompassing inventory 
in Albany and have accounted for the missing suits and 
determined the location of all suits. So that may in fact have 
been corrected. I defer to DLA to comment on that during their 
testimony.
    Mr. Shays. Basically you are not disagreeing with anything 
that I summarized other than that?
    Mr. Mancuso. No, I'm not, Mr. Chairman.
    Mr. Shays. And the only additional--that is your only 
additional add-on to what I have said?
    Mr. Mancuso. That is correct.
    Mr. Shays. Based on your audits, are the problems with 
protective clothing inventories a matter of dollars or 
management?
    Mr. Mancuso. Problems as far as the inventory? Is that what 
you are saying?
    Mr. Shays. Yes.
    Mr. Mancuso. It is both. They are management problems. Some 
of them are complicated by a lack of money, I'm sure. What we 
found during our audits, for instance, in 1999--excuse me, in 
1997, as well as again in 1999--is that cutbacks in the number 
of employees at the depot, changes in the system, and other 
logistics improvements that were being pushed through the 
system, all contributed in some way to the lack of good 
inventory management.
    Nonetheless, there is very little that is as important to 
the Department of Defense as good inventory management. It is 
directly tied to readiness. It is directly tied to waste and 
abuse. Poor inventory management can lead to, for instance, the 
needless acquisition of items that you may have sitting right 
under your nose in another part of the warehouse.
    So although I believe that there is some money in the 
issue, management is very important, and I think DLA is 
attempting to get it under control but this is a problem that 
goes well beyond DLA. Inventory as a whole is a major problem 
for the Department of Defense and one they are wrestling with 
and one that in fact remains as an impediment to the Department 
producing clear, clean financial statements.
    Mr. Shays. We thought that one of the things our committee 
would do is just focus on our storage of equipment, our 
maintenance of equipment, and we determined that our committee 
would be spending all of our time doing that, it is so massive. 
But it is something that we're very tempted to get into in a 
very big and real way. I want you to tell me what systematic 
flaws or weaknesses allowed DLA to issue potentially defective 
equipment to U.S. warfighters.
    Mr. Mancuso. In the case about defective equipment, that we 
are talking about here, there is very little, I think, that DLA 
could have done to avoid fraud by a group of individuals that 
were intent on subverting the system, whatever the system might 
be. One of the points I did not make and I probably should have 
made in my oral testimony was that it was in fact DLA, back in 
1993, that referred the allegations of potential fraud by this 
company to the Defense Criminal Investigative Service, having 
to do with the coats and overalls that the quality people 
suspected that this company was somehow subverting their 
efforts.
    Mr. Shays. That's a plus that they did that. It is a minus 
that they knew it.
    Mr. Mancuso. I'm certainly not making excuses for them. But 
you asked what they could do about stopping items from getting 
into the system. If you are talking about the acquisition end, 
it is difficult when you have a company intent on defrauding 
you. If you are talking about just stopping lower quality that 
may not be an intentional fraud, you need the most intense 
inspection effort that you can have, and that becomes a money 
issue. Once the items are in the system, however, then I 
believe very strongly that it's the people who control the 
inventory who bear a great responsibility for ensuring that 
good decisions are made as to what to do with defective items. 
If you are going to make a decision to allow something to stay 
in inventory or perhaps go out to the troops, at a minimum the 
warfighters need to be a participant in the discussions as to 
what exactly are you allowing to go out.
    Mr. Shays. I'm a little troubled here. I'm getting the 
feeling more that you are describing to me that the problem 
happened. I'm uncertain as to what systematic problems occurred 
that allowed our soldiers to basically get equipment that, if 
they had been exposed to chemicals, they would have died and we 
wouldn't have been able to carry out our mission. And my 
question to you was what systematic flaws? I gather there is 
just total carelessness. I mean, are you basically reporting 
that this happened, or are you making recommendations on how to 
avoid it in the future?
    Mr. Mancuso. I think I'm having trouble answering your 
question because I'm not sure if you want me to focus on what 
happened in the case of Isratex and suits or if you are talking 
much more broadly about the acquisition of materiel.
    Mr. Shays. What bothers me is a lot. This is not a happy 
day for me. Mr. Lieberman and I go back a ways. We go back to 
the 1994 study, and I was a member of this committee and we 
weren't seeing action taken and so one of the staff said I 
should read this report. And then I sat down with Mr. 
Lieberman, sat down with the people who did it, and then I sat 
down with the Army, who basically said this report was not done 
well. So we are going to get into that.
    I am not suggesting that I am in a particularly good mood. 
But what I am trying to wrestle with is that we knew that we 
had defective suits. We cannot deny that we did not know it, 
because we prosecuted people and some people were sent to jail. 
I almost view it as treasonous because I view as giving 
defective equipment that you produce to our military personnel 
means they are dead men. If they are exposed to chemicals and 
it means our mission cannot be carried out and then it means 
that other people who are not exposed to chemicals may be 
exposed to other--their life is threatened because our mission 
isn't being able to be carried out successfully. When we have 
part of the mission not being able to be carried out right, it 
endangers the rest of the mission.
    What I am wrestling with is how in God's name is it 
possible for military personnel to give bad equipment to other 
military personnel? I just don't know how it can happen.
    So I want to know--I know we purchased it. I know we 
prosecuted. I want to know was it just carelessness, 
recklessness, or was it just simply they did not care? Did they 
care but there was a systematic flaw that made this happen? And 
to what extent you can answer that question, I'd appreciate it. 
And if someone else can answer it, I would appreciate it.
    Mr. Mancuso. I suspect DLA will eventually have to answer 
that question.
    Mr. Shays. Let me ask you this in fairness to you. Have 
you--are you basically, is your report before us today just 
documenting it happened but not documenting why it happened and 
documenting--and making recommendations on how to prevent it in 
the future? And so I just want to know what you are prepared to 
say.
    Mr. Mancuso. We are prepared to testify clearly that it 
happened and that it happened despite our discussions with DLA, 
both oral discussions and correspondence that was exchanged. 
And it is my understanding from talking to our people that the 
rationale that was eventually given was that it was a business 
decision, it was a decision made by the logistics people after 
they weighed what they viewed as the seriousness or lack of 
seriousness of the defects, the readiness needs, the 
availability of other suits, etc. They determined that they 
would keep those things in inventory. I certainly question that 
decision.
    Mr. Shays. It sounds to me like, you know, you have one 
bullet in the chamber and you just keep pulling it and 
eventually you get killed. Some of those suits--am I 
misunderstanding the problem? Were some of the suits defective 
to the extent that they would not protect against a chemical or 
biological exposure?
    Mr. Mancuso. Certainly the charge that we included in our 
indictment was that they were providing suits that were 
dangerously deficient. And the testing that was done, 
independent testing we had done by Natick, showed that there 
was a significant number of suits that were tested in the 
samples that had critical defects and could, therefore, 
endanger troops.
    Mr. Shays. Defects like holes.
    Mr. Mancuso. Open seams.
    Mr. Shays. Open seams. Defects like using different 
material than met the specs. Holes, seams that were open and 
material that wasn't--inferior material, material that did not 
meet the specs that they were supposed to meet, that this 
equipment did not work.
    And we prosecuted them for that. Isn't that correct?
    Mr. Mancuso. That's correct.
    Mr. Shays. And isn't it correct that the prosecution was 
successful?
    Mr. Mancuso. Oh, yes, that's correct.
    Mr. Shays. And so we cannot deny. Otherwise, you have got 
to let them out of jail or we better, you know, not hold the 
company accountable.
    So that's happened and that's not what I'm getting into. 
I'm trying to understand how military personnel can allow other 
military personnel to have defective equipment. You're not in a 
position to tell us how it happened right now. You're just able 
to say it happened. I don't want to suggest just that your 
research did more than it did if it did not. So the extent of 
the research is that it happened. You don't quite know and you 
haven't come up with specific recommendations on how to prevent 
it in the future; is that correct?
    Mr. Mancuso. That's correct.
    Mr. Shays. Well, let me do this. I want to give--Mr. 
Lieberman, you and I will have a little dialog about masks, but 
Ms. Schakowsky, you have the floor.
    Ms. Schakowsky. Thank you, Mr. Chairman. Mr. Mancuso, I'm 
new to this terrain, so if I am asking questions that you have 
already testified to or repeating what the chairman has said, 
please forgive me because I am struggling to understand how all 
of this happened as well.
    So we have two batches of suits made by the manufacturer in 
1989 and 1992, the larger batch being the 1989; right? About 
606,000 suits and 173,000 in 1992.
    Mr. Mancuso. Correct.
    Ms. Schakowsky. Let me focus first on the 1992 batch.
    The DLA originally placed a freeze on the suits made in 
1992 because of concerns with the manufacturer on a completely 
separate contract; is that right?
    Mr. Mancuso. Correct.
    Ms. Schakowsky. Related to cold weather parkas or 
something?
    Mr. Mancuso. Correct.
    Ms. Schakowsky. In 1995, you requested a quality inspection 
of the suits in question here. Why did you make that request?
    Mr. Mancuso. Because the investigators during the course of 
their review of the situation involving Isratex found that it 
seemed to be a normal business practice for them to attempt to 
circumvent the system and to supply inferior, defective and 
less costly types of material. They had reason to believe and 
this is based on witness testimony as well--that this included 
chemical warfare suits. For that reason beginning in January 
1995, we notified DLA that we suspected that, in fact, there 
were problems with the suits and we suggested to them that a 
quality audit be done and some segregation of the 1989 and 1992 
lots of warfare suits.
    Ms. Schakowsky. The defects that we are talking about are 
the ones that you just went over, open seams, that kind of 
thing?
    Mr. Mancuso. Correct, although at that point I suspect we 
were not as confident as to precisely what the defects were. We 
were working on witness testimony. There hadn't been the 
testing from the professional test lab.
    Ms. Schakowsky. You called them significant defects at the 
time, although it is reported elsewhere that these were not 
critical defects. But you felt at that point that the entire 
lot should be withheld, right?
    Mr. Mancuso. We suggested that the first thing that should 
happen is that they should do a quality check of these items 
and it may be appropriate to segregate items; in other words, 
put them aside.
    Ms. Schakowsky. OK. Again, correct me if I am wrong, but 
the DLA concluded the suits were servable anyway; is that 
correct?
    Mr. Mancuso. DLA eventually concluded that, although they 
found defects, they did not feel that those defects rose to the 
level that would justify segregation of all of the suits. Yes.
    Ms. Schakowsky. And at that time did you disagree that the 
suits were servable?
    Mr. Mancuso. We disagreed and we continued to investigate. 
And then eventually we obtained other independent testing that 
showed far more critical defects.
    Ms. Schakowsky. In 1999 you requested that the suits be 
tested again; right? Why did you make that second request?
    Mr. Mancuso. It was primarily in support of the criminal 
investigation and evidence that would be needed to ensure the 
successful prosecution.
    Mr. Shays. Put the mic in front of you a little bit more. 
It is kind of on the angle there. Thank you.
    Ms. Schakowsky. And during this check, the inspectors found 
critical flaws in the suits; correct?
    Mr. Mancuso. Yes, many, both through testing and even 
through visual inspection. They found things such as open 
seams.
    Ms. Schakowsky. So why would the inspections in 1996 and 
1999 have different outcomes? They were probably different 
inspectors, but was there a different standard?
    Mr. Mancuso. I would defer to Ms. Levy on that as to 
whether or not there was a different standard.
    Ms. Levy. There were no critical defects found on the first 
inspection. On the second inspection when Natick did the 
inspection they found seven critical defects. Natick used the 
appropriate version of the specs to test the items. When the 
items were first tested by DSCP, they used an earlier version 
of the specs to test the product. Natick used the version that 
was appropriate to the 1992 contract to conduct the tests. They 
found seven critical defects. But DSCP did agree that at least 
one of the critical defects found by Natick was indeed a 
critical defect.
    Ms. Schakowsky. If we are talking about open seams, you 
used the word you could visually observe them. It is hard for 
me to understand why--and that sounds pretty critical to me, 
why that wouldn't have been discovered in the earlier 
inspection. I mean, I understand what you are saying about the 
different and more appropriate standards. But they seem pretty 
blatant, even if what was finally found----
    Mr. Mancuso. I don't think there is any way to positively 
ascertain why that difference occurred. One simple reason may 
be we weren't looking at the precise same suits. I don't 
believe that Natick, when they were looking in 1999, were 
looking at the precise same suits that had been looked at by 
DLA. They were looking at a representative sampling drawn from 
different lots. But because these are such critical items, a 
very limited number of defects would, in fact, have caused a 
rejection of the entire lot while they were still at the 
contractor. They would not have been accepted by the inspector. 
That's what the contract would have required, that the entire 
lot be rejected because the representative sampling----
    Ms. Schakowsky. Exactly, which is why I am trying to figure 
out why that did not happen.
    Mr. Mancuso. There is no way--I don't think there is any 
concrete way--to determine why the two testings came up with 
different results.
    Ms. Levy. There is some explanation as to why they came up 
with different results with regard to the critical defects 
because some of the critical defects that were identified as 
critical during the second testing were classified as major 
under the specs that were used for the initial test. They were 
not considered critical defects. Then Natick updates their 
specs, now some of those items that were first classified as 
major are now considered critical.
    Ms. Schakowsky. Well, in the end though we did find that 
the activity on the part of the manufacturer was intentional 
and they have been, as we pointed out, they have now been 
prosecuted and convicted; right?
    Mr. Mancuso. That's correct.
    Ms. Schakowsky. Let me ask about the 1989 suits. So there 
was not, then, a DLA freeze put on any suits? Or were they--was 
there a DLA freeze put on 1992 suits?
    Mr. Mancuso. The 1992 suits I believe were segregated in 
1995.
    Ms. Schakowsky. Do we mean the same thing when I say freeze 
and you say segregated?
    Mr. Mancuso. We are talking about segregated, moved, taken 
out of active inventory--identified not for normal 
distribution. For the 1992 suits. The 1989 suits were never 
segregated until about a month ago.
    Ms. Schakowsky. Right. That's what I want to get at. So 
when the United States was entering Bosnia, for instance, the 
1989 suits were in circulation?
    Mr. Mancuso. That's correct.
    Ms. Schakowsky. And when the suits were tested in 1996, 
were tests conducted on all the suits or just the 1992?
    Mr. Mancuso. Just the 1992 suits.
    Ms. Schakowsky. OK. And the 1999 inspection, that focused 
on the 1992 suits only too?
    Mr. Mancuso. No, that focused on, I believe, both sets of 
suits.
    Ms. Levy. No. May 2000.
    Mr. Mancuso. It's the most recent ones, the final testing 
in the last few months included the 1989 suits and also 
resulted in the full segregation of the 1989 suits.
    Ms. Schakowsky. Wasn't there a 1999? There were three 
opportunities for the DLA to focus also on the 1989 suits and 
it did not. Isn't that true?
    Ms. Levy. Natick conducted a test of the 1992 suits in 
September 1999 and that is when they identified the critical 
defects.
    Ms. Schakowsky. And not the 1989 suits.
    Ms. Levy. That's correct.
    Ms. Schakowsky. So now we are up to 1989 and the 1989 suits 
three times in a row were not inspected.
    Ms. Levy. That's correct.
    Ms. Schakowsky. And they were made by the same manufacturer 
with the same now conviction and suspicion--well, anyway; 
right?
    Ms. Levy. Indeed it was a continuous production, yes.
    Mr. Mancuso. It would be useful, I think, to mention that 
when we talk in the Department of Defense about a 1989 
contract, conceivably they could be manufacturing today under a 
1989 contract. Sometimes they overlap with other contracts. So 
throughout a period of time they were producing under the 1989 
contracts, then producing extensively under the 1992 contract. 
So it goes on. The reason----
    Ms. Schakowsky. OK. Let me, let me go on. What I'm trying 
to understand is it would have made just as much sense to 
segregate, it seems to me, the 1989 suits too under the same 
rationale, just to be safe, from a questionable manufacturer.
    Mr. Mancuso. That was certainly our position.
    Ms. Levy. Could I just correct something? You said there 
were three tests where the 1989s could have been tested. There 
were two tests and on the third test the 1989 suits were 
tested. May 2000.
    Ms. Schakowsky. That was 2000?
    Ms. Levy. Yes.
    Ms. Schakowsky. OK. OK. That was in May. So it turns out 
though that the 1989 suits were just as flawed as the 1992 
suits; is that right?
    Ms. Levy. There were defects identified, two of which were 
critical when they were tested in May 2000.
    Ms. Schakowsky. And yet there were three our four times as 
many suits produced and in circulation. So I'm having trouble 
figuring out why the 1989 suits were excluded from 
consideration or scrutiny when they had the same manufacturer, 
same quality problems, when there were many more of them. When 
you requested the inspections in 1995, did you explicitly 
request that inspections be done of the 1989 suits as well?
    Mr. Mancuso. Yes, we did, and that resulted in a series of 
discussions and negotiations with DLA as to having this 
accomplished.
    DLA cited a figure that I believe was about a quarter of a 
million dollars that it would cost them to do the appropriate 
sampling and testing for what we were looking for under both of 
those contracts and noted that they frankly could not afford to 
do that. And we actually negotiated for one contract and it 
cost them about $70,000 to conduct the testing.
    Ms. Schakowsky. But beyond that, and I'm curious how you 
felt about it when General Glisson had a press conference, a 
DLA official, said quote: The 1989 lot has never been 
questioned. They never had a single quality control problem 
identified on the 1989 lot. That was not correct; right?
    Mr. Mancuso. That was not correct.
    Mr. Shays. Let me thank the gentlewoman for her questions 
and go to Mrs. Biggert.
    Mrs. Biggert. Thank you, Mr. Chairman.
    Mr. Mancuso, in your testimony you talk about--I'm 
switching now to the protective masks--that out of the 19,218 
masks that were tested there were found to be 10,322 that had 
critical defects. And in your statement, you talk about the 
Deputy Assistant for Chemical Biological Defense, Dr. Anna 
Johnson-Winegar, informed the IG that it was not her job to 
construct readiness oversight. Do you see a problem with that 
and who is in charge for oversight of these?
    Mr. Mancuso. We had hoped that her office would take the 
initiative and attempt to take control of the situation, 
recognizing this is not an easy thing to do in the Department 
of Defense with the various military services. But we have seen 
success in other areas. We had hoped in this area that that 
office would have again taken the initiative to get that done. 
She apparently felt that this was not something that needed to 
be done by her office.
    Mrs. Biggert. Well, you talked, I note, at the last hearing 
this subcommittee had on chemical and biological defense, again 
nobody wanted to be in charge. And today you mentioned about 
centralized testing. We still don't even have centralized 
testing between the services, do we?
    Mr. Mancuso. No, we do not. And, in fact, just to be fair, 
the area that we are primarily concerned about is standardized 
maintenance testing. Her office is certainly involved in trying 
to get some consensus with the services on criteria and things 
like that. They are certainly involved. But they fell short of 
what we would have liked to have seen coming out of the Office 
of Secretary of Defense, which would be a strong leadership and 
control in ensuring that there was uniform testing across the 
board with the services.
    Mrs. Biggert. Well, if--has this been a recommendation that 
you have made to the Department of Defense to have centralized 
testing and to have somebody in charge?
    Mr. Mancuso. We've supported that concept--we were involved 
in the joint study and we supported that recommendation and it 
is out there and our representative was one of the teams that 
formulated it.
    Mrs. Biggert. Have any of the service branches been 
responsive and been willing to have somebody that will have 
oversight in that?
    Mr. Mancuso. Mr. Lieberman has been directly involved in 
that. I will let him answer.
    Mr. Lieberman. We made the recommendation for a centralized 
test program in our 1994 reports. The Department nonconcurred 
and we have been negotiating ever since.
    Centralization is not as important as standardization. What 
we've been after now for 6 years is to make sure that adequate 
testing is going on. Whether it is done all in one place by one 
organization or not is really not the key factor. That is one 
way to make it happen. Otherwise, you're fighting four 
different sets of priorities in four different military 
services. So that's why we initially went to the idea of a 
centralized program.
    It is conceivable that four different test programs can 
fulfill the same objective, as long as there is coordination 
and oversight of what is going on and someone is able to 
identify any of the services that is not really stepping up to 
the challenge. So if it's going to be a decentralized testing 
operation, we would say that strong oversight is absolutely 
necessary to make that work.
    Mrs. Biggert. Well, if there is four different services 
that are doing this testing, and maybe they find very similar 
problems, and yet there is no one that says, oh, maybe there is 
really something inherently wrong with those masks because it 
is not brought back together for a centralized report.
    Mr. Lieberman. Yes, we do see a lack in terms of a way, as 
you say, of bringing these things back together. The Army is 
the executive agent in the Department for individual protective 
equipment. And that's fine because the Army has a lot of 
technical expertise in chemical matters.
    But there is sort of a conflict of interest if you are 
talking about one of the services in essence oversighting 
itself here. And we really think there is a crying need for 
strong leadership from both OSD and the Joint Staff in this 
area.
    Mrs. Biggert. So you could only recommend that and then 
it's up to the Department of Defense to make that decision?
    Mr. Lieberman. Yes, ma'am.
    Mrs. Biggert. Do you think that the Department of Defense 
is unresponsive to this--to the request? Or to the 
recommendation?
    Mr. Lieberman. I think the response from the Department 
candidly has been disappointing. We made those recommendations 
in 1994 and it's only within the last year that the services 
have started the types of mask surveillance testing programs 
that we have been recommending since 1994.
    Mrs. Biggert. In looking at these protective masks and the 
critical defects, were most of these defects because of poor 
maintenance by the servicemen and women or were there inherent 
defects when they were purchased or delivered?
    Mr. Lieberman. There were some production problems, but by 
and large, the bulk of the problem here is a maintenance 
problem. The designs of the masks today are good. It is good 
equipment, but it is not soldier-proof by any means. And 
apparently the masks really suffer once they're in the hands of 
the users. The maintenance routine is either too difficult or 
not well enough understood by the troops and you have got to 
have proper maintenance for this equipment to work.
    Mrs. Biggert. If they don't receive the training or if it's 
not--they don't care for them properly, is that again because 
there is no standardized training or standardized maintenance 
that is given to the four services to train their personnel on 
how to maintain those masks?
    Mr. Lieberman. It is a leadership problem reaching all the 
way down to the smallest-sized units of the services. You are 
not going to have exact standardized training because there are 
some differences in the models of mask that the different 
services are using. And there are real environmental 
differences between shipboard use of masks by the Navy and 
masks that an infantry unit has out in the field some place, 
for example.
    But this is essentially a leadership problem. It is a 
command problem. It's no different from the soldier's weapon 
not being able to fire because it's not properly maintained. So 
we have to find a way to get every single user of a mask, which 
is down to the lowliest PFC in Army terms, to maintain these 
masks properly.
    The only way to know whether that is happening or not is to 
bring in technical experts with equipment to test the masks to 
find out whether they are still serviceable or not.
    Mrs. Biggert. Is that what you talked about your carry-on 
or testing equipment, or I forget what you called it, but 
something that is mobile?
    Mr. Lieberman. Yes. Nowadays the good news is that there is 
better test equipment on the market. Much better test 
equipment. There's a new device that basically takes a semi-
trailer's worth of equipment and puts it in a suitcase and you 
don't lose any capability. So obviously this should make it 
much easier logistically to take the equipment to where the 
users are and do onsite testing.
    Mrs. Biggert. And with leadership that would be 
accomplished. Just one quick thing, could you just define what 
``critical defects'' are?
    Mr. Lieberman. Critical defects are defects that have 
potential life-threatening consequences.
    Mrs. Biggert. And an example would be?
    Mr. Lieberman. An open seam that allows leakage through the 
seam.
    Mrs. Biggert. Or broken eyeglass or whatever?
    Mr. Lieberman. Yes.
    Mrs. Biggert. Thank you very much. Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentlewoman. And the gentleman from 
North Carolina.
    Mr. Sanford. South Carolina. Come on, be nice.
    Mr. Shays. Is that a critical mistake?
    Mr. Sanford. It's huge. Huge.
    Mr. Shays. Huge. I love your basketball teams.
    Mr. Sanford. Exactly. I've just got one quick question, and 
that is when I look at inventory accuracy, as I read through 
the pages of your testimony, I mean it just struck me as an 
incredibly odd story. And that is you begin with the defense 
depot in Columbus, OH, supposedly there are around 2 million 
suits. The audit finds--I guess this is the 1997 audit finds 
that there are major discrepancies, was your wording.
    They adjust for $46 million worth of basically lost 
equipment, and they find that basically there are a half 
million fewer protective suits than they thought were the case. 
Then it turns out in 728 other locations, they basically find 
another almost 700,000 suits that they did not know were over 
there worth about $51 million. The audit says, quote, a series 
of poor inventory management practices. It is believed that 
this can be cleared up by moving this stuff to the defense 
depot in Albany, GA. The stuff is moved down to Georgia, but in 
fact there is the opposite effect in terms of inventory problem 
and of the 225,000 protective suits that are supposed to be 
there, it turns out there are 31,000 suits not there. And at 
this point, people are not even worried about quality. It says 
quality was never verified, but they begin a wall-to-wall 
inventory. It is completed January 2000 and it turns out 23,000 
of the missing suits were found in like completely different 
storage areas. And, essentially, as I read this, the other 
7,000 protective suits were basically written off.
    Is that normal?
    Mr. Mancuso. I would add that was one type of suit, when 
you gave those last few numbers. We're not certain about the 
other 19 types of suits. We're waiting for the inventory.
    Is that normal? We have seen this type of problem before 
involving other types of commodities, to the extent where, as I 
mentioned earlier, it has a significant impact on the overall 
DOD financial statement. There is a huge amount of money 
involved and the records are simply not right and not reliable.
    It is a problem. And there are many ongoing initiatives in 
the Department to help correct that problem. Part of the issue 
is the tying in of inventory with financial records, trying to 
have some joint accountability there.
    Mr. Sanford. But it kind of strikes me as odd that you can 
get on the Internet now and call up a place called Amazon.com 
and you can order some book from some strange inventory that 
they've got in another State and somehow the book ends up in 
your house 2 days later. And I am not saying that DOD should 
ever be tied to that level of technology, but in other words 
clearly structurally there is something wrong if you are 
looking at that kind of misplacement of assets owned by the 
taxpayer.
    If you were to look at structure, what is wrong with 
structure that allows something like that to happen? I mean, I 
think there was an allegation, well, that too many inventory 
type folks have been cut from the budget and therefore that was 
the root. Is that the root problem? Or, no, they've just got 
really faulty inventory practices and not at all concurrent 
with what you would see in business today? I mean, what is it? 
If you look at root causes for how something like that happens, 
what's the root cause from your perspective?
    Mr. Lieberman. Sir, there are a number of causes. One is 
inaccurate data in computerized data bases. These records are 
all automated. Since we are talking about each depot trying to 
manage hundreds of thousands of different types of items, they 
are heavily dependent on the accuracy of computer records. 
Unfortunately, in the Department of Defense----
    Mr. Sanford. If I go down that logic essentially I think 
that many of the people doing data entry at Amazon.com are paid 
less than people are paid in the military. And yet I mean last 
time I checked, when I had ordered one of those books I mean it 
doesn't go to North Carolina. Shays would like to send me to 
North Carolina. But in other words, it comes to South Carolina. 
So I don't understand.
    Mr. Lieberman. Well, my point is the inventory management 
systems just are not good enough. They are full of bad data. 
This is one of the reasons why the GAO has designated DOD 
inventory management as a high-risk area, going back to the 
original list of Federal Government management high-risk areas. 
And there is really no prospect of it coming off that list any 
time soon because we need to field a whole generation of 
systems that are more capable of cleaning out bad data.
    Once you get a data base that is full of inaccurate 
information, it is really hard to ever recover. It is 
particularly frustrating in the DLA situation because DLA is 
using a reasonably new, reasonably modern system, the 
distribution standard system for its basic inventory 
recordkeeping. So we are not talking about some ancient system 
that you could say is just plain outmoded. But still it is 
chronically inaccurate. The inventory counts that are done by 
the depots are not up to snuff either and this is one thing the 
auditors have observed as we assess their inventory methods.
    GAO issued a report last winter saying that DLA had the 
poorest inventory accuracy record of any of the components that 
store large quantities of supplies in the Department. It was 
down in the low 80's, which for logisticians is really 
terrible. So they know they have that problem.
    In the annual financial statement audits, as Mr. Mancuso 
mentioned, one of the reasons why we have declared the DOD 
financial records unauditable every year now since the Chief 
Financial Officers Act was passed is the inability to 
demonstrate that we have accurate inventory.
    So it is a real problem. A lot of effort is being made to 
correct it. But, unfortunately, there are a lot of stories like 
the chemical suits out there.
    Mr. Sanford. If you were to pick two things that would be 
most helpful in fixing that problem, what would they be?
    Mr. Lieberman. Better automated systems, and an objective 
look at the staffing requirements at these depots rather than 
just cutting the work force arbitrarily.
    Mr. Sanford. Say that again. I was interrupted. The second 
sentence again was what?
    Mr. Lieberman. An objective look at the staffing 
requirements at the depots rather than just reducing their 
rolls arbitrarily to meet work force reduction goals.
    Mr. Sanford. Mr. Chairman, I will ask one other question. 
Can I ask one other question, Mr. Chairman?
    Mr. Shays. You have the floor.
    Mr. Sanford. And this is not directly related but it is 
related to defense logistics, and that is the current, quote, 
surplus program. Give me your take on that just for a few 
minutes. In other words, the numbers I have seen suggest that 
out of the back-door of DOD goes somewhere between $350 million 
and $3.5 billion worth of stuff every year that is given to 
other Federal agencies, State or local government.
    Are there these kinds of inequities or inaccuracies 
possible in that program as well? Because I for one believe 
that that stuff ought to go on a market basis, sold at auction 
if you will on a market basis to those other agencies, State or 
local government, as opposed to being given, which I think 
would prop DOD up to the tune of $3.5 billion that could be 
used in other functions of defense.
    Are the same kind of inefficiencies existing there that I 
see here?
    Mr. Mancuso. It is certainly related. And in fact the 
better your inventory system is, the less surplus should be 
pushed out the door. One of the things that we were concerned 
about but I don't believe we found in the case of the chemical 
warfare suits, for instance, is did the fact that there were 
all of these suits that they did not even know they had, cause 
them to go out and buy even more suits that they did not need? 
And if that were the case, eventually somebody is going to have 
to dispose of them. Because these have a shelf life, eventually 
they go out in surplus. It did not happen in this case, but we 
see it in other cases.
    Poor inventory controls result in wasteful acquisitions and 
frequently result in an excess of items being pushed out into 
the surplus chain.
    As far as giving things away to charities or whatever, we 
have seen gross inequities in some of those cases. We have seen 
individuals conspire. In one case involving a local fire 
department in some small State, received 27 fire trucks in a 
few-year period. In another instance, somebody who held 
themselves out as a Native American received literally hundreds 
of thousands of blankets and then opened a blanket business. 
These things happen and there are issues--they are not 
necessarily the fault of the people in the surplus chain but 
there are inventory issues. Things can only have a useful life 
for so long.
    You also have the problem that the more you store, the more 
it costs you to store it. So things end up going out in surplus 
on that end as well. They are certainly tied together.
    Mr. Sanford. I thank the gentleman, and I thank the 
chairman.
    Mr. Shays. I thank the gentleman and thank Mr. Mica for his 
patience. You have the floor.
    Mr. Mica. Thank you, Mr. Chairman. Who would be the most 
familiar with this Isratex case? Mr. Mancuso, would you be 
familiar with the case?
    Mr. Mancuso. Yes. Yes, I would be.
    Mr. Mica. I noticed in the testimony here that the criminal 
investigation was initiated in May 1993. It appears though, 
that action really wasn't taken against them until just 
recently. Some of the--looks like October 1998 indictment was 
superseded in 1999 by a 23-count indictment.
    Mr. Mancuso. Uh-huh.
    Mr. Mica. What took so long in going after these folks?
    Mr. Mancuso. The case was a fairly complex case. It moved 
from an investigation of a facility in Puerto Rico having to do 
with coveralls and coats in the 1993 and 1994 timeframe to 
eventually----
    Mr. Mica. Into fraud in another area, supplying other 
fraudulent goods----
    Mr. Mancuso. And then moved this into the protective suits 
in 1995. But that's not a terribly long time for a complex 
fraud case. Typically, from the time that the case is initiated 
and to a conviction it would not at all be unusual----
    Mr. Mica. This company looks like it had several 
operations, one in West Virginia, one in Puerto Rico, and also 
cited a headquarters or some offices in New York.
    Mr. Mancuso. Correct.
    Mr. Mica. Do they still do business with us?
    Mr. Mancuso. No, they are in bankruptcy and they have been 
suspended and debarred by the Defense Logistics Agency.
    Mr. Mica. And I guess we won't recover anything. It seems 
almost like a minuscule fine of $266,000 and $96,000, and we 
did $47 million worth of business on those two contracts.
    Mr. Mancuso. I asked that same question, Congressman. In 
cases where the fraud is so dramatic one might expect heavier 
penalties. However, in this case virtually the entire corporate 
leadership structure, as well as the company, were penalized. I 
mean this guaranteed we put them out of business. Putting them 
out of business eliminates, as far as the Justice Department is 
concerned, much of a possibility of a successful civil suit. 
These criminal fines were actually quite significant.
    Mr. Mica. Are we able to go after them and recover money? 
Because I would imagine some of these guys have some deep 
pockets probably as a result of pass-through money from these 
contracts.
    Mr. Mancuso. That's a consideration for the Justice 
Department, and usually that would be occurring----
    Mr. Mica. They don't seem to be shy to go after legitimate 
businesses.
    Has this been referred to them?
    Mr. Mancuso. Most certainly.
    Mr. Mica. And have they done anything?
    Mr. Mancuso. They have completed the criminal prosecution 
and they have made some preliminary decisions----
    Mr. Mica. Versus civil recovery?
    Mr. Mancuso. They have made some preliminary decisions that 
they will not pursue civil recovery based on the lack of 
apparent wealth that's available.
    Mr. Mica. We might look into that in my subcommittee. I 
oversee Department of Justice and we have some questions about 
some of the things that they're doing. It seems astounding to 
me, too, that you can also have--I'm skipping now to masks--
19,218 masks that were tested and 10,322 had critical defects. 
And this is just in one batch?
    Mr. Mancuso. It is not a batch. That was a sampling, a very 
broad sampling across the services of masks.
    Mr. Mica. OK. So it was a sampling of the larger----
    Mr. Mancuso. Right.
    Mr. Mica. And I guess you have maybe three phases to your 
testing these masks or making certain that there's quality 
involved. One would be sort of a prepurchase, and then I guess 
on delivery there must be some inspection and then shelf life. 
Would those be the three major checks?
    Mr. Mancuso. And the individual soldier and maintenance 
check in the field as well.
    Mr. Mica. And do you feel we have adequate--they have now 
instituted adequate procedures to make certain that we catch 
defects in all of these stages?
    Mr. Mancuso. No, no, I wouldn't agree with that. We 
certainly feel that there's need to be more standardized as far 
as how testing is completed and the criteria that's used. We 
don't have any reason to question----
    Mr. Mica. Is this a problem of lack of funds to accomplish 
this, is this something the Congress hasn't provided, military 
short on resources, or is this a problem of not having proper 
administrative procedures and controls in place?
    Mr. Mancuso. To my knowledge there is no monetary issue 
here. We are really talking about leadership within the 
services and a recognition as to the importance of this problem 
and a follow-through with the maintenance reviews. The Marine 
Corps has shown it can be done.
    Mr. Mica. There was a working group that put in 
recommendations for a centralized mask surveillance testing 
program. It says the Deputy Assistant rejected the working 
group's recommendation. Who was that Deputy Assistant?
    Mr. Mancuso. I believe that's Dr. Winegar.
    Mr. Mica. Is he still around?
    Mr. Mancuso. She.
    Mr. Mica. She.
    Mr. Mancuso. I believe she is with us here today and will 
be testifying today.
    Mr. Mica. But then it goes on, I guess that was at some 
step in the process that she rejected that, and now I think 
they have recanted; is that correct or no? Has she changed her 
opinion?
    Mr. Mancuso. No, not to my knowledge.
    Mr. Mica. And you are still of the strong belief that the 
working group's recommendations should be instituted?
    Mr. Mancuso. At least this area of the recommendation 
involving strong oversight by OSD to ensure standardization.
    Mr. Mica. All right. I think that answers my questions, Mr. 
Chairman. Thank you.
    Mr. Shays. I thank the gentleman. In your statement on page 
9, Mr. Mancuso, you say the Defense Logistic Agency initially 
segregated the BDOs, that's the battle dress outfits that had 
been delivered under the 1992 contract preventing operational 
distribution. However, 3 months later, they concluded that the 
BDOs were serviceable and returned them to regular stock, 
leading to the audit finding that I discussed previously. Do 
you know why they felt comfortable? I mean, basically, the 
reason is they felt they were serviceable? Do you know under 
what basis they felt they were serviceable?
    Mr. Mancuso. They conducted their own review. I am not 
sure----
    Mr. Shays. DLA did their own review?
    Mr. Mancuso. The DLA inspection staff conducted their own 
review at that time. I am not sure what criteria they used, but 
they made that decision unilaterally.
    Mr. Shays. On page 16 as it relates to--Mr. Lieberman, we 
go back a ways I think, correct?
    Mr. Lieberman. Yes, we do, sir.
    Mr. Shays. This is a report, quick reaction report, 
reliability of the M 17 series and M 40 chemical protective 
masks. It's report 94-154, June 30th, 1994. It's secret, but 
there's a redacted version in the gulf war register under gulf 
link, and so what's in the redacted is everything that is not 
considered a secret. And there's also the November 2nd, 1994 
report, Defense hotline allegations regarding fielding of 
chemical protective masks. This is also secret, except that 
there's a redacted version under gulf link.
    Now, these two reports were brought to me sometime, I 
guess, in 1995 by staff of this committee, which I was a member 
but not chairman, in the minority, I believe--actually, it was 
before 1995. I was actually in the minority. And I found what I 
read in these so alarming that I went to Mr. Regal on the 
Senate side, who I know had been involved because I didn't know 
who I should speak to about information that became secret 
about the condition of our masks, and I am asking you this 
question: Is there, in your judgment, is there a logical reason 
why 6 years later, these should be secret and why the 
information in its entirety shouldn't be made public? Can you 
think of any reason why it shouldn't be?
    Mr. Lieberman. I would have to go through the report line 
by line and discuss with whoever thought it was classified what 
their rationale was. I believe at the time the main thrust of 
the thinking--and as you know, it was the Department of the 
Army that did the classification, not my office--but I believe 
the main concern related to details of readiness deficiencies.
    Mr. Shays. This is about the Department of the Army's 
performance as it related to the masks, correct?
    Mr. Lieberman. Largely, yes. Although, the other services 
were involved, also.
    Mr. Shays. They took the greatest exception to your report, 
correct?
    Mr. Lieberman. Yes. But we don't have classification 
authority. Our authority is derivative.
    Mr. Shays. I'll take your answer this way. You would have 
to go through it to see if there would be--continue to be a 
need for this to be secret.
    But Mr. Mancuso, I'm going to read your statement on 16. So 
we have a dispute with the Army, the Army didn't agree with 
these reports. That's correct, isn't it, Mr. Lieberman?
    Mr. Lieberman. Yes.
    Mr. Shays. And the bottom line is there was some logic that 
if this report was not accurate, why do we want information out 
for public consumption that would lead people to come to a 
conclusion that might not be an accurate one. I could see the 
logic then. So we ended up with disputes with the Army as to 
whether they were going to conform to this report or whether 
they agreed to it, and they took strong exception to the 
report. That's not a secret, that's a fact.
    Now, in your report, in your statement, that is an attempt 
to resolve the question of whether these reports and your 
investigation were done properly and that the findings 
therefore are valid, and you say, Mr. Mancuso, in your 
statement, to resolve the outstanding issues, in June 1995, the 
Department agreed to initial pilot retail chemical mask 
surveillance studies. A joint service mask technical working 
group was established to conduct the study under the auspices 
of the joint service materiel group. The IG, DOD worked closely 
with the working group to formulate the sampling plans for the 
study and we also had a representative on the working group. In 
other words, DOD has come together, the service branches are 
coming together, you're cooperating and you're saying OK, let's 
redo this, correct?
    Mr. Mancuso. That's correct.
    Mr. Shays. The results of the study were presented in a 
final mask surveillance pilot program report of November 15, 
1999. Now let me just tell you, I had a big problem that it 
took so long, but now you can continue to say, in brief results 
of the study released in November 1999 validated the concerns 
that we had reported in 1994.
    Now this is for public record. This is your statement. I am 
not disclosing anything that's not--that I'm not allowed to 
you, and let me say to you, I would never disclose secret 
information, and I have felt it's my moral obligation to always 
honor that, even if I disagree with the classification as you 
do.
    Now you said, in brief results of the study released in 
November 1999 validated the concerns that we had reported in 
1994. Of the 19,218 masks that were tested, 10,322 had critical 
defects; is that accurate?
    Mr. Mancuso. That is accurate.
    Mr. Shays. Now, the Joint Service Integration Group, final 
report, mask surveillance, process action team, November 5th, 
1999. If I go through this report, ``minor'' is defined as a 
defect that does not hinder the use of the item as it was 
originally intended. ``Major,'' a defect that severely 
restricts operational or serviceability of the mask, but is 
unlikely to compromise protection of the mask, i.e., cause a 
leak. And then critical, a defect that has the potential to 
result in mask leakage and may impact on the protection of the 
wearer. So that's the definition. You didn't invent this 
definition. This is in the report.
    Mr. Mancuso. Correct.
    Mr. Shays. So if I turn over to page 3, and this is not a 
classified document, is it?
    Mr. Mancuso. No, it is not.
    Mr. Shays. Of the 19,218 tested, a total of 4,898 passed 
without a minor, major or critical notation. Minor, 2,549; 
major, 1,449; critical, 10,322. Do you believe that the Joint 
Service Integration Group final report mask surveillance, 
process action team, of November 15th, 1999, validated the 
findings that are still secret in this report?
    Mr. Mancuso. Yes, I do.
    Mr. Shays. Ms. Schakowsky.
    Ms. Schakowsky. I just wanted to quickly finish up a line 
of questioning. You had said that the DLA felt that inspecting 
the 1989 lot would have cost $250,000, and for that reason they 
decided not to do it, and then I quoted from General Glisson, 
who actually went further and said that they never had a single 
quality control problem identified on the 1989 lot. So was it a 
financial decision or was it, in fact, that they were somehow 
convinced that there was no problem?
    Mr. Mancuso. I would argue it was primarily a financial 
decision.
    Ms. Schakowsky. Well, if it were a financial decision 
originally, why weren't inspections ordered immediately once 
company officials were charged with fraud?
    Mr. Mancuso. They were charged on the, among other things, 
they were charged with fraud involving the 1992 contract. I 
don't believe there were any specific counts in the indictment 
relating to the 1989 contract. That would be the rationale.
    Ms. Schakowsky. Do we know whether the 1989 suits were used 
in the gulf war?
    Mr. Mancuso. My office, and we've had discussion as 
recently as this morning about it, we are unaware as to the 
precise distribution, if any, of the warfare suits. We would 
rely on DLA to tell us the answer to that question. We've been 
told that there was no such distribution, although certainly we 
are as aware as anyone else as some of the news articles in 
citing of units who purport to have received those items. The 
answer is no, I am not aware of items that actually went out, 
but we're in----
    Ms. Schakowsky. Do you have confidence in their assurances 
that they were not used? Do you have confidence?
    Mr. Mancuso. I have confidence that as of a month ago when 
they told me they were segregated, that they will not be 
distributed. I have no reason to have confidence in the 
statement that they were or were not issued out of inventory 
before they were segregated last month.
    Ms. Schakowsky. Last month. We are talking about the gulf 
war. So it's possible that service members going back to the 
gulf war, and since then, may have been using defective suits 
the whole time they were there, and that those suits could have 
been useless against a chemical or biological attack.
    Mr. Mancuso. If items are not segregated, well, that 
possibility would exist.
    Ms. Schakowsky. What would the cost have been--what was the 
value of the 1989 lot, the 1989 suits, do you know, if they 
would have had to recall all 600,000.
    Mr. Mancuso. About $38 million of the total approximately 
$50 million.
    Ms. Schakowsky. And was that a factor as well, do you 
think?
    Mr. Mancuso. I'd be guessing. From what I understand, 
what's important to DLA is how much do they have on hand. Will 
they be able to meet the services' needs? What's the cost for 
segregation? What's the cost for testing? All of those are 
considerations for them when they make a decision as to what, 
if anything, they need to do.
    Ms. Schakowsky. But what we do know is maybe $38 million 
worth of suits maybe were being used by our service personnel 
and putting them at risk.
    Mr. Mancuso. I defer to DLA on that. I suspect some may 
well have gotten out, but I have no reason to believe there was 
any great volume of them. I just don't know.
    Ms. Schakowsky. Thank you.
    Mr. Shays. I just have one other line. I just want to 
followup on what I previously asked. The bottom line is both 
these reports have been validated in a very significant way by 
the process action team. This wasn't the IG redoing its 
investigation. It was a team effort in which you basically had 
to come to some agreement about the testing criteria and the 
process in which you would test the masks; is that correct, Mr. 
Lieberman?
    Mr. Lieberman. Yes, sir. This was the Department's tests. 
We were just participants.
    Mr. Shays. You were kind of just honest brokers in a sense 
to make sure it was being handled properly, but they did the 
tests of their equipment.
    Mr. Lieberman. Correct. We helped them put together a 
sampling plan, for example.
    Mr. Shays. And if, in fact, they had determined there were 
very few critical masks, you would have been there to say the 
tests have shown that somehow we had--an earlier study was not 
validated.
    Mr. Lieberman. That's correct.
    Mr. Shays. Now, after I said of the 19,218 masks--after you 
said of the 19,218 masks that were tested, 10,322 were critical 
defects, and we defined critical defects as being a defect that 
has the potential result in a mask leakage and may impact on 
protection of the wearer, examples, outlet valve, dirty slash 
leaks, external drain tube quickly disconnects, leaks, side 
voicemitter gasket missing, etc. After you made this statement 
of the 19,218 masks that were tested, 10,322 had critical 
defects, then you said, however, the Deputy Assistant for 
Chemical Biological Defense informed us in March 2000 that--you 
know what, let me even, before I go into what she said, let me 
just come back and say that Larry R. Ellis, Lieutenant General, 
G.S. Deputy Chief of Staff of Operations and Planning in the 
Army, said in response to the PAT, and the process action team, 
final reports that the data presented in the PAT final report 
regarding the quality of defects found by the U.S. Marine 
Corps, NBC equipment surveillance unit should be interpreted 
with care. The purpose of the 2-year surveillance effort was to 
see if masks over time were developing systematic problems. The 
mask surveillance project found that there is no indication of 
extensive degradation over time or through field usage other 
than through wear and tear, which is exacerbated by a lack of 
field/fleet maintenance.
    That statement, however, is the same as--however, the 
Deputy Assistant for Chemical Biological Defense informed us in 
March 2000 that, ``there is no indication of extensive mask 
degradation over time or through field usage other than through 
wear and tear, which is exacerbated by a lack of field/fleet 
maintenance.''
    Is it possible that you misquoted the Deputy Assistant for 
Chemical and Biological Defense and you meant Mr. Ellis?
    Mr. Lieberman. No, sir. They both used the same language. 
In fact, I believe the General was quoting the Deputy 
Assistant. The Deputy Assistant's words are taken from a March 
27th, 2000 memo that she sent me.
    Mr. Shays. I just have to find out which happened first. 
It's not all that important, trust me.
    Mr. Lieberman. They were within a few weeks of each other.
    Mr. Shays. The bottom line is they both were saying the 
same thing?
    Mr. Lieberman. Yes, sir.
    Mr. Shays. What does it mean?
    Mr. Lieberman. The point that----
    Mr. Shays. It means that they still insist that----
    Mr. Lieberman. That the test results showed no 
deterioration--well, there is a glimmer of good news in the 
test results. That is, the masks are not deteriorating over 
time because of such things as materiel degradation. The bad 
news, though, and I think the compelling result of the test, is 
that the masks leak. They're not sufficiently serviceable.
    Mr. Shays. But 50 percent of the masks you tested had a 
critical failure; is that correct?
    Mr. Lieberman. Yes.
    Mr. Shays. Is the Army still resisting, are they still 
maintaining that these reports aren't valid? Are they still 
maintaining that the masks do the job that are required?
    Mr. Lieberman. Sir, you will have to ask the Army. The 
latest communication from them is a description of what they 
are doing to generate a viable training and masks surveillance 
effort. We found that very welcome. It is basically a reversal 
of their position after 6 years.
    Mr. Shays. So the bottom line is 6 years after the fact, 
they're now doing what you would have liked to see them do in 
1994, 1995 when your first report came out.
    Mr. Lieberman. Yes, that's a very fair characterization. In 
fact, in our very first 1994 report, we talked about the need 
for better maintenance, and the Army specifically said they 
would take measures to improve mask maintenance. That was in 
mid 1994. The tests, the DOD tests that we've just finished 
talking about, tested masks during fiscal years 1997 and 1998. 
The failure rates experienced or detected in 1998 show that 
after 4 years of whatever the better maintenance program was, 
it was still not working. That's the bad news that came out of 
that report. Very startling.
    The good news is, as I said, the Army is obviously making a 
concerted effort right now to improve training, maintenance and 
testing. We are still unsure of how deep the commitment is. 
There's language in the Army response that says all this will 
be done if funds are available, and I don't know how big a 
loophole that is.
    Mr. Shays. Make that last comment again, please.
    Mr. Lieberman. The Army response to us said they will 
execute an annual surveillance testing program as originally 
recommended and as now promised, if funds are available, and I 
don't know whether funds are available or not.
    Mr. Shays. So the bottom line for this is basically half of 
the masks had critical defects that could result in their not 
being operational, and that half of the potential soldiers who 
use them would find potentially that the equipment they're 
wearing would be useless, that's the bottom line, and the sense 
I get from you is that this is still not a high priority for 
the Army. That's the sense I get.
    Mr. Lieberman. Well, I can't put myself in the heads of the 
Army and tell you----
    Mr. Shays. I know you can't, but I can react to a statement 
that says if they get the money, they will do the job. If I 
ever suggested to any military personnel that they send our 
troops in harm's way with defective equipment, I don't think 
they would do that.
    Mr. Lieberman. We agree.
    Mr. Shays. Is there any question that you would have liked 
any of us to ask? Is there any answer that you would have liked 
to have made to a question that you wish we had asked?
    Mr. Mancuso. Not from me, Mr. Chairman.
    Mr. Shays. I don't want you to come to me later and say if 
only you had asked this question. So if I didn't ask it you 
need to ask yourself. Is there anything you think needs to be 
part of the record, for the good of our country, that's not 
already part of the record?
    Mr. Mancuso. No.
    Ms. Levy. No, Mr. Chairman.
    Mr. Shays. And I just want to thank the staff that worked 
on this original report because in my office, I felt that the 
DOD personnel were extraordinarily condescending to your staff, 
and I felt they were condescending to me as well. I felt that 
they acted like they knew and you didn't, and you were willing 
to have all of this be retested, and the reports are very 
valid. And you have said, in a sense, that it reaffirms in some 
way your earlier report and I agree with you. Thank you very 
much.
    I'd like to call our next panel and ask them to remain 
standing so I can swear them in. Brigadier General Daniel 
Mongeon, Commander, Defense Supply Center, Philadelphia; 
accompanied by Mr. George Allen, Deputy Commander, Defense 
Supply Center, Philadelphia. We also will hear testimony from 
Mr. Robert Kinney, Individual Protection Director at Natick 
Soldier Center, U.S. Army soldier and Biological Chemical 
Command.
    And is there anyone else that you believe you may turn to, 
I would like to ask them to stand so we can swear them in as 
well.
    [Witnesses sworn.]
    Mr. Shays. Thank you. Let me thank all of you. I have 
strong feelings about this aspect of what the military is doing 
but I know all of you to be very devoted Americans and very 
competent individuals, and we'll see what we learn from your 
statements and our questions, but we do appreciate your service 
to our country and I mean that sincerely.
    General Mongeon.

 STATEMENTS OF BRIGADIER GENERAL DANIEL G. MONGEON, COMMANDER, 
   DEFENSE SUPPLY CENTER PHILADELPHIA, ACCOMPANIED BY GEORGE 
 ALLEN, DEPUTY COMMANDER, DEFENSE SUPPLY CENTER PHILADELPHIA; 
AND ROBERT KINNEY, DIRECTOR, INDIVIDUAL PROTECTION DIRECTORATE, 
    NATICK SOLDIER CENTER, U.S. ARMY SOLDIER AND BIOLOGICAL 
                        CHEMICAL COMMAND

    General Mongeon. Good morning, Mr. Chairman, and 
distinguished members. I'm Brigadier General Dan Mongeon, 
Commander of the Defense Supply Center Philadelphia, and I am 
accompanied by my Deputy, Mr. George Allen. I appreciate the 
opportunity to appear before this subcommittee and address 
questions concerning individual protective equipment. I am here 
representing the Defense Logistics Agency, because of the role 
the Defense Supply Center Philadelphia plays in managing 
individual protective equipment for the agency and the 
Department of Defense.
    In carrying out our mission, we work closely with the 
Defense Distribution Center which receives, ships and stores 
individual protective equipment as well as many other products 
on our behalf. In its invitation to testify, the subcommittee 
requested that we address four specific questions. The first 
question was whether the Defense Logistics Agency is complying 
with the recommendations made by the DOD Inspector General in 
two specific audit reports. The Inspector General issued two 
audit reports, one in 1997 and one this year, which found 
discrepancies in the inventory records for battle dress 
overgarments and recommended that these discrepancies be 
corrected.
    In the second report, the Inspector General also found that 
chemical protective suits manufactured under two Isratex 
contracts contained major defects and recommended that the 
Defense Logistics Agency complete efforts to identify 
potentially defective suits and remove them from inventory and 
alert other DOD activities. The recommended inventory was 
completed in January 2000, and all chemical suits that were 
known to be potentially defective were physically segregated. 
The Defense Supply Center Philadelphia alerted its customers of 
potentially defective suits in December 1999, and again in 
February 2000, advising the suits should be used only for 
training purposes. In addition, worldwide clothing alerts were 
issued in March of this year and May of this year.
    With regard to the suits produced by Isratex, it is evident 
that with the requisite motivation, our quality control system 
can be subverted. A criminal investigation into Isratex's 
business operations revealed that the company did, in fact, 
engage in illegal activities to get around the quality 
assurance protections and we know that these suits did not meet 
contractual requirements.
    Clearly, this experience demonstrates that there is room 
for improvement. We have taken steps to effect that 
improvement.
    In summary, Mr. Chairman, I believe that the actions that 
we have taken fully address the issues raised in these two 
reports and demonstrate our commitment to ensuring that the 
service member is provided with the equipment that affords the 
intended level of protection.
    The second question asked us to specify what types of 
individual protective equipment are in DLA's inventory and 
where they are located. We manage a wide range of individual 
protective equipment items. Chief among those are battle dress 
overgarments, black vinyl overshoes, chemical protective gloves 
and the joint service lightweight integrated suit technology 
chemical protective suit, which is the replacement for the 
battle dress overgarment. These items are stored principally at 
the Defense depots in Albany, Mechanicsburg, and San Joaquin.
    The third question asked what quality control procedures 
are in place for acceptance of individual protective equipment 
from vendors. On our behalf, the Defense Contract Management 
Agency sends its quality assurance representatives into our 
manufacturing plants to evaluate the contractor's quality 
systems; identify and evaluate all key high risk processes; 
perform production audits on the outputs of high and moderate 
risk processes; perform data analyses; verify all key 
contractor processes, and finally, authorize shipment of the 
completed items.
    In addition, these critical items are subject to 
specialized testing involving subjecting them either to actual 
chemical agents or simulants designed to test their protective 
capabilities. In addition, based on our experience with the 
Isratex suits, we have issued a letter of instruction to 
quality assurance representatives in the plants requiring 
visual and dimensional inspections of each lot prior to 
shipment while calling out specific defects that must be 
emphasized during that inspection.
    The fourth question asked us how DLA tracks shelf life of 
individual protective equipment. Shelf life surveillance is the 
responsibility of the military service which is the proponent 
for each item. I would like to defer to Mr. Kinney on specific 
questions you may have with regard to shelf life surveillance 
on battle dress overgarments.
    In closing, Mr. Chairman, I would like to say that the 
Defense Logistics Agency takes very seriously its 
responsibility to provide military services with individual 
protective equipment that affords them the best available 
protection. In our efforts to do so, we work closely with the 
services and the Defense Contract Management Agency to ensure 
that we take delivery of only product that meets the need fully 
and that the level of protection provided by the equipment 
retained in inventory is carefully monitored over time. Thank 
you, sir.
    Mr. Shays. Thank you very much, General.
    [The prepared statement of General Mongeon follows:]
    [GRAPHIC] [TIFF OMITTED] T2288.030
    
    [GRAPHIC] [TIFF OMITTED] T2288.031
    
    [GRAPHIC] [TIFF OMITTED] T2288.032
    
    [GRAPHIC] [TIFF OMITTED] T2288.033
    
    [GRAPHIC] [TIFF OMITTED] T2288.034
    
    [GRAPHIC] [TIFF OMITTED] T2288.035
    
    [GRAPHIC] [TIFF OMITTED] T2288.036
    
    [GRAPHIC] [TIFF OMITTED] T2288.037
    
    [GRAPHIC] [TIFF OMITTED] T2288.038
    
    [GRAPHIC] [TIFF OMITTED] T2288.039
    
    Mr. Shays. Mr. Kinney.
    Mr. Kinney. Yes, thank you. Good morning Mr. Chairman, 
members. I am Robert Kinney, the Director of Individual 
Protection at the Natick Soldier Center, U.S. Army Soldier and 
Biological Chemical Command. I truly appreciate your invitation 
to appear here today and express my gratitude to the members of 
this committee for your interest in the welfare and protection 
of our armed forces from chemical and biological attacks.
    I am here representing the Natick Soldier Center because of 
my personal technical background and responsibilities, as well 
as the role Natick has with respect to individual protection. 
As the Director of Individual Protection, my role is to lead 
the science and technology programs and provide technical 
expertise for the research development and engineering support 
of individual survivability technology and products to include 
chemical and biological percutaneous personal protection.
    I am intimately familiar with the battle dress overgarment 
and have had related personal technical responsibilities dating 
back to the garment's inception. Natick was responsible for the 
development of the battle dress overgarment, as well as the 
generation of its specification. We are the engineering support 
activity for this product for the Army, execute the stockpile 
surveillance program and provide technical recommendations to 
the product manager, soldier equipment, who is the life cycle 
manager.
    Mr. Shays. Mr. Kinney, if you would just move that mic a 
little closer to you, I'm sorry. Thank you very much.
    Mr. Kinney. In June 1999, we were contacted by agents from 
the Defense Criminal Investigation Service concerning garments 
manufactured by Isratex under contract DLA 100-92-C-0427. We 
were requested to perform a quality inspection on a lot of 500 
garments held in custody. We recommended that audit and 
recommended to the product manager that these garments be set 
aside for training purposes.
    In March 2000, Natick and the Defense Supply Center 
Philadelphia agreed to jointly conduct a quality audit on 
garments manufactured under a separate contract, DLA 100-89-C-
0429, and the audit was conducted in May 2000. We jointly 
concluded that garments manufactured under this contract be 
removed from service and set aside for training purposes. The 
specific results of these audits are contained in my recorded 
testimony.
    In closing, Mr. Chairman, I would like to emphasize the 
Natick Soldier Center's commitment to the individual war 
fighter. We are the technical experts which are part of a 
crucial acquisition team providing the best technology for our 
armed forces. And I welcome any questions you may have.
    Mr. Shays. Thank you, Mr. Kinney.
    [The prepared statement of Mr. Kinney follows:]
    [GRAPHIC] [TIFF OMITTED] T2288.040
    
    [GRAPHIC] [TIFF OMITTED] T2288.041
    
    [GRAPHIC] [TIFF OMITTED] T2288.042
    
    [GRAPHIC] [TIFF OMITTED] T2288.043
    
    [GRAPHIC] [TIFF OMITTED] T2288.044
    
    [GRAPHIC] [TIFF OMITTED] T2288.045
    
    Ms. Schakowsky. Thank you, Mr. Chairman.
    General, I want to one more time go back to this press 
conference that happened in February and General Glisson's 
remarks that were made at that time and ask you a couple of 
questions. Again, he said the 1989 lot had never been 
questioned, there never was--they never had a single quality 
control problem identified on the 1989 lot.
    Another question, and how do you respond to the criticism 
that the Army didn't move fast enough to remove these 
potentially defective suits from the inventory to prevent them 
from being issued?
    Lieutenant General Glisson: I guess I would respond by 
saying if we had any indication, any indication that we had 
suits out there that would have potentially--that would have 
been potentially dangerous to anyone in the Department of 
Defense, we would have done that. We had none.
    Now, I am just curious what ``any indication'' means 
because in 1993, a criminal case was brought against the 
manufacturer of these suits. I realize a formal inspection 
wasn't requested at all for either of the 1992 or 1989 until 
1995, but would not that have been an alert for such a large 
batch of critical suits for our service personnel?
    General Mongeon. If I could answer in a number of ways, the 
first piece I would say is that with reference to the 1993 
investigation that was ongoing, that investigation was centered 
on the Isratex manufacturer that was in Puerto Rico and that 
had to do with coveralls.
    Ms. Schakowsky. I understand.
    General Mongeon. In 1993, there was no indication 
whatsoever that there was any problem with anything that was 
being manufactured in West Virginia. In fact, up until the 
1990's, Isratex had an outstanding record of producing numerous 
items, technical items, complicated items for the Department of 
Defense that I know had a very strong track record.
    With regard to General Glisson's comments, he was referring 
to the information that DSCP had provided him relative to the 
analysis that was done in 1996 at the request of DCIS, where we 
went in and did a grand lot sample of the 1992 Isratex BDOs. At 
that time, again, there was no indication that there were any 
issues with the 1989 BDOs. As a matter of fact, in 1991----
    Ms. Schakowsky. What would those indications have been? 
What made you assume that there were no problems with 1989, 
especially my understanding is that the DLA had expressed 
concern over those and that a decision was made not to, for it 
sounds like reasons of $250,000, to inspect the 1989 batch.
    General Mongeon. The inspection of the--first of all, what 
would indicate any reasons, I'd like to go back to that. In 
1991, DCIS came to us and said there are some potential 
allegations against Isratex and the 1989 lots. We conducted a 
full investigation of the 1989s with DCIS and looked at them to 
include completely tearing apart the garments and cutting them 
apart to look at within the seams to find out if there were any 
issues. We went through that. DCIS was 100 percent with us on 
inspection in 1991 of the 1989 contract. No major deficiencies 
were found, no critical deficiencies were found, and in fact, 
one minor deficiency was found and they were cleared from that 
investigation, and that information we have provided in the 
notebooks that we have provided to the committee.
    Ms. Schakowsky. So your testimony is that there was a 
complete inspection of that 1989 batch earlier?
    General Mongeon. There was sample done based on the batch--
on the lots that were identified by DCIS in 1991, and that 
sample was done and no deficiencies were found. So General 
Glisson was basing his comments on the track record that we had 
with the 1989 BDOs up until a point of when he was interviewed, 
and he was talking about specifically the ones that were 
suspect were the 1992s, and in fact, that's the ones that had 
the grand lot sample.
    Ms. Schakowsky. So when the DLA decided to set aside the 
safety concerns that were raised by the IG in its request to 
inspect the 1989 suits, what you're saying it wasn't just about 
money, $250,000, it was because you felt that you had already 
done that and that they were fine?
    General Mongeon. Yes, ma'am. Not only had we already done 
that, but when we, in discussions and in items that had been 
provided to the committee, clearly in those discussions and in 
the investigation, the investigation focused in on activities 
of the Isratex that happened in 1992 and 1993 predominantly. 
The 1989s were completely out of production by that time. That 
was another aspect of when we could talk with DCIS about what 
should be done. They eventually asked us to do a grand lot 
sample of 1992s and we did the grand lot sample of 1992s. The 
money that was referred to was for the grand lot sample of 
1992. It was not a part of--anything to do with the 1989 
sample. The sample that was requested was for 1992s, and that 
was the grand lot sample that was conducted, and in fact, the 
numbers that were quoted, the initial estimate was $250,000. 
Eventually it cost about $70,000.
    Ms. Schakowsky. So you're on record, what you're saying is 
that despite what we have later concluded, that there were 
problems with the 1989 batch, that you rejected doing any 
further investigation in 1995 because you had confidence that 
you had done it and that they were fine?
    General Mongeon. In 1995, based on all the information we 
had, based on any information that we would receive from the 
field for quality deficiencies, we had no record of any 
deficiencies for the 1989 suits.
    Ms. Schakowsky. Now you know that to not be true, right? 
Don't we as of, what month is it--the May 2000 conclusion is 
quite different.
    General Mongeon. It is not quite different. In the May 
2000, what we agreed with Natick was to do a joint effort to 
look at the 1989s. Through that joint effort we looked at those 
and determined that there, in fact, were some critical defects 
and that we recommended that they be used for training only. So 
that is correct.
    Ms. Schakowsky. So what's the difference? Why did you pass 
up these critical defects and potentially sent our armed 
personnel into pretty dangerous situations wearing them? And 
now we find that there were critical problems.
    General Mongeon. Again, back at the time, in reference to 
General Glisson's comment, back in the time of 1996, that 
assessment that was made on those uniforms by the standards 
that were applied at that time----
    Ms. Schakowsky. You said the 1989 batch was inspected 
earlier than that, I thought.
    General Mongeon. The 1989 batch on certain lots was 
inspected in 1991 and were fully inspected and passed.
    Ms. Schakowsky. And now that same batch was inspected and 
found to have critical----
    General Mongeon. Not the same batch, in the total 
aggregate, which was about 600,000. That is not necessarily the 
same lot. It is not necessarily----
    Ms. Schakowsky. Do we have reason to believe that those 
same suits which you gave a passing grade to and therefore they 
were distributed were found now to be--to have critical 
defects?
    General Mongeon. The 1989s, in terms of the review that we 
did with Natick, found critical defects, and we agreed with 
that finding and we recommended they be used for training 
purposes only, that is correct.
    Ms. Schakowsky. So there was a mistake made?
    General Mongeon. I would not categorize--in 1996, I can 
only speculate to say that there was a mistake made in 1996. I 
cannot say there was a mistake made with the information that 
was available and the tests that were done.
    Ms. Schakowsky. My understanding is that both the 1989 
suits and the 1992 suits were supposed to go--undergo annual 
inspections after they had aged 5 years; is that right?
    General Mongeon. Yes, ma'am, that's correct, and they did.
    Ms. Schakowsky. And they were annual inspections for what?
    General Mongeon. Annual surveillance, and I would defer 
that question to Mr. Kinney because they do the annual 
surveillance, but those annual surveillances were done and 
those suits were included.
    Mr. Kinney. The Stockpile Surveillance Program is a program 
that was initiated to investigate whether or not we could 
extend the shelf life of the garments. We have extensive 
knowledge of the types of materials that these uniforms have 
been made out of. The predecessor to the battle dress 
overgarment was the chemical protective overgarment, which was 
manufactured out of the same types of materials.
    The 5-year shelf life, we were very confident that the 
garments would meet the 5-year shelf life, and the extent of 
the testing conducted is very different from the types of 
testing that you would see in a quality assurance audit. The 
focus of it is to look at whether or not there's any advanced 
degradation due to aging, advanced aging while the product is 
sitting in storage. So you're looking for things like fungus, 
rot, mildew, the deterioration as a result of something like 
that.
    Ms. Schakowsky. So this would have nothing to do with 
looking for critical defects in the suits?
    Mr. Kinney. As part of that investigation, there is a 
minimal visual inspection looking for effects of shelf life, 
whether or not there is fungus or rot, and in so doing, if 
there are any obvious defects that are noted, that that would 
be taken into account, but the assumption was that the 
government bought quality products in accordance with the 
specification, and so the inspection really was focusing on 
shelf life.
    Ms. Schakowsky. So if you saw open seams or----
    Mr. Kinney. If we saw open seams, we would obviously report 
it, and in the case of the inspections to date, I am not aware 
of any critical manufacturing defects that we have identified 
as a result of the surveillance program.
    Ms. Schakowsky. And yet when your team, just a few weeks 
ago, looked at those, you didn't even get through 25 percent of 
the samples before you found enough defects to terminate the 
inspection; is that correct?
    Mr. Kinney. You're referring to the 1989----
    Ms. Schakowsky. No. I'm talking about the----
    Mr. Kinney. The inspection that we just conducted in May of 
this year?
    Ms. Schakowsky. Yes.
    Mr. Kinney. We executed in conjunction with Defense, DSCP, 
we executed the evaluation and we decided to stop the 
evaluation after we looked at the first 125 suits because we 
had reached the failure criteria, I believe it was a total of 2 
critical, 73 major and 289 minor defects.
    Ms. Schakowsky. And that's because you were looking for 
something entirely different than you look at on your annual 
inspection?
    Mr. Kinney. Let me explain. A quality inspection is a very 
detailed inspection, and a lot of these critical defects, for 
instance, an open seam, they're not easy to find. It takes a 
trained inspector to look for these types of defects. You have 
a detailed table of operations within the specification that is 
many pages long, and it can take--it can take between an hour 
and 2 hours to actually inspect one suit utilizing these 
procedures. In the case of open seams that we saw, the critical 
defects that we saw in this inspection, they were on the inside 
of the garment on the foam liner which is a hung liner inside 
of the garment. So it takes--it is not something that is 
readily apparent. You don't see a big gaping hole that you can 
spot immediately.
    Ms. Schakowsky. Thank you very much.
    Mr. Shays. General Mongeon, what can you tell me that will 
build confidence that there are adequate procedures being 
applied to all protective equipment in DLA inventory?
    General Mongeon. In terms of the--in terms of the quality 
assurance, Mr. Chairman?
    Mr. Shays. You know, where they are and so on.
    General Mongeon. In terms of what we are doing with the 
quality assurance as the new suits are coming on line, we're 
working that very closely with the PM, which is the Marines. We 
have issued letters to the quality assurance individuals in the 
manufacturing plants, very specifically detailing that no lots 
are to be passed until they have visual and end item 
inspection. In addition to that, we have sent teams out to the 
manufacturing plants to work with quality assurance people, 
that they look for specific things that potentially could be 
major defects.
    In addition to that, there is product testing that is done 
by the manufacturer, and we do separate manufacturing testing 
verifying those findings. If there are any differences between 
the two, we refer those back to the program manager of the 
Marines and they take a comprehensive look at that.
    Finally, the Marines on their own have an independent lab 
that do inspection of all of the new uniforms of the JS list 
that are coming on board, and this is done by an independent 
lab, and those inspections are done, and that is also for the 
chemical simulant testing, and then, in addition to that, they 
are pulling individual samples from individual lots so that 
every lot will be controlled and can be tested on a periodic 
basis to ensure their viability.
    Mr. Shays. I was expecting you, given that the Inspector 
General said you've already done the wall-to-wall inventory, to 
tell us the results of that. So let me, since you didn't do it 
voluntarily, let me ask you the results.
    General Mongeon. In terms of the wall-to-wall inventories, 
those have been completed. All of the defective BDOs have been 
accounted for. They are segregated, they are shrink-wrapped, 
they are clearly marked with safety and placard and they are--
every measure has been taken that those will not be issued.
    Mr. Shays. And how many suits are we talking about?
    General Mongeon. Approximately 334,000 suits in the depots.
    Mr. Shays. Let me ask you this question: How specifically 
will you strengthen acceptance standards to avoid corrupt 
vendors to like Isratex in the future? What are you going to be 
doing about that?
    General Mongeon. The comments that I just made about the 
quality assurance that we are working with the Marines covers 
all of those areas and have been significantly strengthened. 
Again, the first one being the letter we have issued out to the 
representatives of the Defense Contract Management Agency 
telling them specifically that no items will be approved unless 
there is end item inspection, and then we gave them a specific 
list of what to look for. We're sending a team out to all of 
those manufacturers to work with those quality assurance 
representatives to make sure that they know what to look for 
with those deficiencies.
    Again, the manufacturer is required to do quality assurance 
inspections and testing. We are also doing that independently. 
If there are any disconnects between those two, we refer that 
to the PM, to the Marines.
    And finally, the Marines are doing testing by an 
independent lab for the chemical protection and also pulling 
from each lot to ensure that they have a capability to go back 
and test any one of those lots, and they're doing random tests, 
extensive testing and examination of those lots, even after 
they have been issued.
    Mr. Shays. Let me, even though Ms. Schakowsky has made 
reference to this, and I want to ask you specifically, the IG 
in page 9 said the Defense Logistics Agency initially 
segregated the BDOs that have been delivered under the 1992 
contract preventing operational distribution. However, 3 months 
later they concluded the BDOs were serviceable and returned 
them to regular stock, leading to the audit find that I 
discussed previously. Just explain that to me in simple terms.
    General Mongeon. In approximately 1995, DCIS came to us and 
asked us to conduct a grand lot audit. We agreed to do that at 
that time and we went out and did the grand lot audit.
    Mr. Shays. And the grand lot audit means----
    General Mongeon. It means we took--by standard, we took a 
large sampling, in this case, 500 BDOs, that was statistically 
sound for the total number of items that were in the inventory, 
and that's why we took a grand lot as opposed to a smaller 
sample, and we did that sample. There's no question that 
deficiencies were found, major and minor, but no critical 
deficiencies were found, and at the time when they went through 
and did that analysis, they made the decision to release those 
from segregation and hold, which is condition code L to 
condition code A, and to put those BDOs back in stock. That 
decision was made then.
    Mr. Shays. And you used the term ``critical'' like I would 
use ``minor,'' ``major,'' ``critical'' under the PAT?
    General Mongeon. Yes, sir.
    Mr. Shays. Now, under what basis could you make a 
determination that there weren't any critical? I mean, what 
testing did you do to come to that conclusion?
    General Mongeon. We tested that. We went through and they 
did all the examinations by standard. In addition to that, we 
also did chemical simulant testing on them, and they passed the 
chemical simulant testing.
    Mr. Shays. On every one?
    General Mongeon. No, on a sample.
    Mr. Shays. And so, explain to me why did you get different 
results?
    General Mongeon. Different results from?
    Mr. Shays. The Natick guy.
    General Mongeon. Sir, I cannot explain the difference in 
results. What I can tell you is that recognizing that we had a 
difference of opinion and different results, today, anytime an 
issue comes up with BDOs, we work that collectively with 
Natick.
    Mr. Shays. I'm sorry, when you were talking, I was 
beginning to get lost here a second, so I don't mind if you 
would respond again to my question.
    General Mongeon. Yes, sir. I cannot specifically----
    Mr. Shays. I'm asking why Natick came to a different result 
than you all did. Is it that they used a tougher standard?
    General Mongeon. I think in terms--it is a judgment. It is 
a view of the two different inspectors 3 years later. I really 
would only be speculating to tell you what the reason was. The 
only thing I can tell you is that from that difference that we 
do joint inspections now, so we do not have that problem in the 
future, as was indicated by the 1989 Isratex inspection that we 
did jointly to avoid this problem of having two different views 
of the BDOs.
    Mr. Shays. Mr. Kinney, could you add anything here?
    Mr. Kinney. I think if you take a look at the results from 
all of the inspections of the Isratex garments, one thing comes 
out loud and clear is that they--there are much too many 
defects that these products are representative of inferior 
quality, and I think that is consistent, and if you look at the 
numbers of defects, I can't explain why we found critical 
defects and DSCP didn't in their 1996 inspection. I was not 
there. I just can't explain it.
    Mr. Shays. But you found a lot of critical defects.
    Mr. Kinney. We found 7 critical defects out of 
approximately 96 suits in our inspection in 1999.
    Mr. Shays. It used to be if a manufacturer was making a 
car, they anticipated the suppliers would give them so many 
defective products, and they used to have large inventories. I 
mean, we had our practices and then we tried to do what Japan, 
with their best businesses practices, they had no inventory, 
and they demanded 100 percent. They allowed no defect, and if a 
supplier gave them defect, they didn't get the product. And 
what amazes me is that that's a car. Here we're talking about 
protective gear, and it seems like we're in the dark ages.
    And so when I first got involved in the mask issue and we 
were looking at high numbers, it was so high I couldn't even 
contemplate it, and it's obviously with the defect and the 
criminality that existed here, it boggles the mind. I was 
reading what the defects were. Some of them were visual, and 
they were quite extensive and quite serious. I am not even 
going to read them because the terms, I'll blow them in the 
reading of them.
    But I would just want to conclude and invite Ms. Levy up.
    Ms. Levy, you have been sworn in, if you would just come up 
and sit next to Mr. Kinney. It's not my practice to have a 
debate here, but I do want to make sure that the record is 
accurate, because we depend on this record for recommendations 
and so on, and when Ms. Schakowsky was asking General Mongeon 
some questions, I want to make sure that you, in your capacity 
as Defense Criminal Investigative Service of the Office of IG, 
whether you would just want to clarify any point or put any 
point on the record.
    Ms. Levy. Well, I would like to clarify that in January 
1995, we did notify DSCP that we had concerns about both the 
1989 and the 1992 contract, and at that time we made an oral 
request that both--that the goods from both contracts be 
segregated in code L, meaning that they would not be 
distributed.
    Mr. Shays. And that's January 1995?
    Ms. Levy. January 1995, that's correct, and originally DSCP 
did contact the Columbus depot and ask that the items from both 
contracts be segregated. At that time the Defense Distribution 
Depot in Columbus came back with an estimated cost of $245,500 
to segregate the goods, and we made three additional written 
requests concerning the audit. And in all of these requests, we 
identified both the 1992 contract and the 1989 contract being 
of some concern. In fact, we identified what some of the 
concerns were based upon witness testimony from having 
interviewed people like Isratex in West Virginia.
    Mr. Shays. So the first was an oral request in January 
1995, and then there were written requests that were that same 
year?
    Ms. Levy. There were written requests, oh, spanning from 
August 1995 until September 1995.
    Mr. Shays. And what were the concerns requested in those 
written documents?
    Ms. Levy. I'd have to refer to them.
    Mr. Shays. OK. But the bottom line is that in your oral 
statement is you suspected criminality and defective suits, 
correct?
    Ms. Levy. Yes, on both contracts, that's correct.
    Mr. Shays. And did the letters make those same points?
    Ms. Levy. It referred--our letters referred to both 
contracts being concerned that defective materials were being 
provided under the contract.
    Mr. Shays. And this is in January 1995?
    Ms. Levy. 1995 and subsequent to that.
    Mr. Shays. General, is there anything----
    Brigadier General Mongeon. Yes, sir.
    Mr. Shays. What would you disagree----
    General Mongeon. I would just respectfully disagree. As a 
matter of fact, we provided for the committee, we provided 
those letters. You can read those letters. On October 12, 1995, 
DCIS' letter requested specifically that the 1992 Isratex BDOs 
be included in the grand lot. Those letters are readily 
available. You have those letters, sir, and I would just ask 
you to read the letters.
    Mr. Shays. So your recollection is this, did this 
conversation in January, do you recall or anyone in your 
organization recall the January conversation?
    General Mongeon. Sir, I would totally agree that in the 
timeframe of August 1995, that there was dialog between DCIS 
and some of the people in Philadelphia with regard to the 
ongoing investigation in the West Virginia plant and that 
during that time references were made to both contracts but in 
further detail as was developed. When employees were asked, as 
an example, when were these critical events happening, they 
were saying that these events were happening in 1992, 1993 
timeframe, the 1989s were completely delivered by that 
timeframe. It was our understanding that DCIS was focusing in 
on the 1992 lots because those are where the information was 
coming for what they potentially saw as criminal activity.
    Mr. Shays. Yeah, but we're dealing with corrupt people. I 
mean, how would you characterize an organization and employees 
of an organization that would deliver knowingly defective 
equipment? How would you characterize that?
    General Mongeon. Sir, I would characterize that as totally 
unacceptable.
    Mr. Shays. Unacceptable as that's the limit to it? I mean 
unacceptable, please don't do it again?
    General Mongeon. No. Unacceptable in terms of that's 
fraudulent activity and we would not do business with them.
    Mr. Shays. But, see, I view it differently. I view it as 
risking the lives of the men and women who might wear those 
suits and then risking the mission of the men and women who are 
wearing those suits and then risking the outcome of any 
potential engagement and so, you know, that to me is like 
telling your enemies your secrets. It's extraordinarily serious 
that that is more than unacceptable, and therefore, I have a 
hard time understanding how you could have a comfort level that 
fraudulent people should be believed.
    General Mongeon. I was not indicating that fraudulent 
people should be believed, sir. What I had said earlier was 
that up until that time we had no indication that the 1989 
suits were defective.
    Mr. Shays. I guess what I would wonder is even if you 
thought that a company had--that if the IG was suspecting that 
there was some fraudulent delivery of goods by a company, I 
guess in my own mind I'd say, well, should we feel comfortable 
with previous deliveries? I mean that's the way my mind would 
work. So, all of a sudden it became crooked?
    But at any rate, Ms. Levy, is there anything that you would 
just want to add? I mean I am not expecting to resolve, 
because, General, you said look at the letters and we'll look 
at the letters. We're not going to resolve it today but I just 
want to make sure that before we go to the next panel that we 
have put on the record what we need to.
    Ms. Levy. Well, one thing that's a bit confusing is that 
these contracts, production is run under these contracts 
concurrently. So given that the 1989 contract was being 
produced during the same time the 1992 contract was, we had no 
reason to believe that Isratex was handling the contracts 
differently.
    Mr. Shays. Just to be clear, so in my foolish mind here I 
was assuming that these contracts were in 1989 delivered in 
1989. These 1989 contracts were still being delivered in 
subsequent years?
    Ms. Levy. The contracts overlapped.
    Mr. Shays. Right. In other words, I said----
    Ms. Levy. Delivery was still being made on the 1989 
contract during the time of the 1992.
    Mr. Shays. So we're not talking about a 1989 batch, we're 
talking about 1989 contract?
    Ms. Levy. That's correct. And we did throughout our 
investigation maintain that we had--we suspected that the same 
thing was happening on the 1992 contract as was happening on 
the 1989 contract, and we questioned the integrity of all chem 
suits being produced by Isratex.
    Mr. Shays. OK. General, your comment is you thought it was 
one and not the other and that's what the record states. So 
we'll just followup on that. It's just--if you're telling me 
that a product is still being made, it's not a 1989 batch but 
the product is still being made by a corrupt company with 
corrupt employees, you know, I don't know if my mind would work 
to say, well, they're going to be honest with one batch but 
dishonest with another. This wasn't, General, in my view, this 
wasn't that they had defective machinery and so there's 
machinery in one line-up. This was a company ethic that was 
willing to cheat the government and risk the lives of our 
soldiers.
    So we'll check the documents and we'll just try to sort 
that out. But General, your comment is on the record and that's 
what you believe to be true, and so that's what the record will 
state.
    Mr. Allen, do you have any comments that you want to make?
    Mr. Allen. No, sir.
    Mr. Shays. General, is there any closing questions you wish 
we had asked or any comments you would like to make?
    General Mongeon. No, sir.
    Mr. Shays. OK. Thank you. Mr. Kinney.
    Mr. Kinney. Yes, Mr. Chairman, I do have one point. 
Comments have been made with respect to the defective products 
where our soldiers were going to die, and from a technical 
perspective the NBC, nuclear, biological and chemical, arena 
with respect to personal protection specifically in products 
like the BDO, the approach, this is my opinion, the approach is 
very conservative from the risk, which is a very severe threat, 
to the types of engineering and research and development that 
are utilized all the way up to the types of testing and the 
quality assurance. Because of the severe nature of the threat 
and of chemical and biological warfare, we take a very 
conservative approach.
    And the issue with respect to the garments from Isratex, 
they were inferior quality products and the government should 
clearly have not procured them, but as far as whether or not 
they should be issued to troops, I think it's clear that they 
still--these garments still provide a significant level of 
protection. And when you take into account things such as the 
severe nature of the threat, those garments would probably have 
provided a significant level of protection in most threat 
environments. The severest environments, I think you would 
probably have problems, but----
    Mr. Shays. Mr. Kinney, I wish you hadn't said that, and I 
wish I had the ability to take it off the record. In one sense, 
I like your candidness and I like witnesses to say what they 
think, but it just opens up another whole line of questioning 
that you really don't--what is your expertise?
    Mr. Kinney. I am a chemical engineer by training.
    Mr. Shays. OK. So we purchase suits and equipment that were 
supposed to meet certain requirements. Aside from the fraud 
issue, which is, I could agree, and the fraud issue, in other 
words, they were able in essence to bid on a contract, and 
because they didn't make it the way they had to according to 
specs, they could cheat the government, but they also cheated 
other companies that might have wanted to bid on this that knew 
that they were going to be honest and weren't going to cut 
corners and probably had to bid higher. I am making the 
assumption there were other companies that could make the 
product. I could be wrong.
    But what I am uncomfortable with is that I guess you want 
me to know that even if they were defective they probably did 
some good. But my mind works and says that's like, you know, 
saying we're going to put a clip in a gun and instead of it 
having 10 bullets, it's going to have 3 and this person is 
being attacked and they're going to get three shots and three 
shots is better than no shots. If that's your point, yes, but 
there were three shots they didn't get to fire and in the 
meantime he could have been killed or she could have been 
killed. So that is why I'm uncomfortable with your logic.
    Mr. Kinney. That was the point I was trying to make. Under 
normal circumstances I would not recommend using those 
products--that product, but if you were in a situation, and 
program managers, product managers have to deal with issues of 
risk every day on what type of product go to the field, and if 
the question came up whether or not I issue this product or not 
because I don't have anything to issue, my recommendation----
    Mr. Shays. Was that the issue? Did we not have anything to 
issue?
    Mr. Kinney. I'm not aware. I was just trying to make the 
point with respect to the fact that----
    Mr. Shays. It's an uncomfortable feeling thinking that you 
might be in a circumstance or somebody be in the circumstance 
where they would have risked the lives of our men and women, 
and I can understand why you wouldn't want that hanging on your 
shoulders, but I just am uncomfortable with your point. The 
bottom line is we paid for a certain quality, and the men and 
women who get those equipment need to know that they work.
    Mr. Kinney. Absolutely.
    Mr. Shays. And there are some of the men and women who 
would have gotten it would have found that their equipment 
wouldn't have worked, and they have to have faith in the 
military, that the military has the quality control to make 
sure that they have the equipment that will do the job. And so 
I think that's a dangerous attitude to have frankly.
    Your point, and I'll take it from the best side, your point 
is that that equipment is better than nothing. We'll leave it 
at that.
    OK. Is there any other comment that anybody would like to 
make on the panel? Well, we will get to the third panel. I 
thank you very much.
    Our next panel is comprised of five members--participants 
who will testify, Dr. Anna Johnson-Winegar, Deputy Assistant to 
the Secretary of Defense, Chemical-Biological Defense, 
Department of Defense; Major General John Sylvester, Deputy 
Chief of Staff for Training, U.S. Army Training and Doctrine 
Command; Major General Ernest Robbins, Civil Engineer, 
Headquarters, the U.S. Air Force; Rear Admiral David Stone, 
Deputy Director of Surface Warfare Division, U.S. Navy; Major 
General Paul M. Lee, Commander of Marine Corps Materiel 
Command. I'd ask you to all stay standing just so we can swear 
you in.
    [Witnesses sworn.]
    Mr. Shays. Thank you. Note for the record that all of our 
witnesses have responded in the affirmative. I think that we 
want to try to--I know we want to try to accommodate you, 
General Robbins. I believe that you need to be out of here by 
1:30; is that correct?
    General Robbins. If possible.
    Mr. Shays. That will happen. And let me say to all of you, 
Dr. Winegar, you're a civilian working in the Defense 
Department, correct? The rest of you have served your country 
in the military, and in many cases heroically, but certainly in 
every case gallantly. And I am a Peace Corps volunteer. I'm not 
in the military but I have a job to do here and I just hope you 
understand my job, and in the end we'll come to what we need to 
come to. So we'll get a good result out of this hearing and we 
will move forward.
    I think given that we still have about 40 minutes until you 
have to leave, General Robbins, we'll just go down the order 
that we have, and given that we have five witnesses, we'll try 
to stick to the 5 minutes but I truly will roll over another 5, 
and you use it, and General Robbins, if we have a problem I'll 
just let you go early. So we'll be able to accommodate you.
    Dr. Winegar. The thing you have on these gentlemen here is 
that you are a doctor and you should take great pride in that, 
too.
    Dr. Johnson-Winegar. Thank you, sir.
    Mr. Shays. Aside from your wonderful service to the DOD.

  STATEMENTS OF ANNA JOHNSON-WINEGAR, DEPUTY ASSISTANT TO THE 
 SECRETARY OF DEFENSE, CHEMICAL-BIOLOGICAL DEFENSE, DEPARTMENT 
OF DEFENSE; MAJOR GENERAL JOHN SYLVESTER, DEPUTY CHIEF OF STAFF 
    FOR TRAINING, U.S. ARMY TRAINING AND DOCTRINE COMMAND, 
DEPARTMENT OF DEFENSE; MAJOR GENERAL EARNEST ROBBINS, THE CIVIL 
 ENGINEER, HEADQUARTERS U.S. AIR FORCE, DEPARTMENT OF DEFENSE; 
 REAR ADMIRAL DAVID M. STONE, DEPUTY DIRECTOR, SURFACE WARFARE 
 DIVISION, U.S. NAVY, DEPARTMENT OF DEFENSE; AND MAJOR GENERAL 
  PAUL M. LEE, JR., COMMANDER, MARINE CORPS MATERIEL COMMAND, 
                     DEPARTMENT OF DEFENSE

    Dr. Johnson-Winegar. Thank you, Mr. Chairman. I am Dr. Anna 
Johnson-Winegar, the Deputy Assistant to the Secretary of 
Defense for Chemical and Biological Defense. I appreciate the 
opportunity to present my testimony today and answer your 
questions on this very important topic.
    Let me begin by emphasizing that the Department of Defense 
takes the threat of chemical and biological warfare very 
seriously, and I believe that it is incumbent upon all of us to 
focus our resources and our energies toward developing the very 
best defenses against chemical-biological agents so that our 
military can perform their mission in any kind of an 
environment, including a potentially contaminated one.
    As you know, in accordance with Public Law 130-160 my 
office is designated as the focal point for coordination and 
integration of the Department's chemical and biological 
research, development and acquisition programs. Since 
implementation of the law, we have submitted a single 
consolidated budget request for these research, development and 
acquisition efforts, and we feel that this has led to improved 
effectiveness, better execution and significantly improved 
jointness across the services.
    However, consumable chemical-biological defense items and 
maintenance of these fielded items are managed by the 
individual services in accordance with their Title X 
responsibilities and the services' desire to manage their own 
operation and maintenance funds. No defensewide funding exists 
for chemical-biological defense logistics and maintenance. OSD 
is, therefore, limited to tracking the status of chemical-
biological defense logistics readiness and sustainment programs 
in the individual services.
    As you are also probably aware, there are a number of other 
offices within the Department that have some oversight 
responsibilities for some aspects of chemical-biological 
defense. These include, to name a few, the Deputy Under 
Secretary of Defense for Science and Technology, the Assistant 
Secretary of Defense for Health Affairs, the Assistant to the 
Secretary of Defense for Civil Support, the Under Secretary of 
Defense for Policy, the Joint Staff and others.
    With specific regard to the DOD IG report and testimony 
that I was unable to provide details of the services' actions 
and felt that my responsibility is limited to equipment 
acquisition, I would like to summarize some actions that have 
been taken by my office. You have already referred to the fact 
that the Joint Service Materiel Group established a Joint 
Service Mask Technical Working Group to evaluate issues in the 
hotline audit reports. They recommended that the services 
conduct a 2-year retail mask surveillance pilot study. Based on 
the potential severity of these findings, the Joint Service 
Integration Group was tasked by my office to examine the 
findings from the user perspective.
    The Joint Service Integration Groups PAT, Process Action 
Team, reviewed the pilot program and provided their final 
report in November 1999. I have subsequently forwarded copies 
of that report to the Joint NBC Defense Board for distribution 
to senior operational personnel in each of the services. Per my 
direction, the results of this report will be incorporated into 
the NBC Defense Logistics Support Plan, again with distribution 
and participation from senior logistics commanders in each of 
the services.
    I have furthermore directed a validation of current field 
protective mask fit factor criteria. I plan to review detailed 
plans provided by each of the services which will address their 
individual actions to address the test rate failures seen in 
the masks. As was reported last week to the Deputy Secretary at 
the Counterproliferation Review Council, the global status of 
resources and training systems and a joint monthly readiness 
review have assessed that compliance in the aggregate is high 
and noted that ongoing initiatives within the services will 
continue to strengthen unit level chemical-biological defense 
reporting. However, they did conclude that chemical-biological 
defense reporting occurs through readiness channels rather than 
functional channels within the Department.
    Currently the Deputy Under Secretary of Defense for 
Readiness and the Office of the Assistant Secretary of Defense 
for Policy, Strategy and Threat Reduction, along with the Joint 
Staff, have primary oversight for chemical-biological 
readiness. However, with the recently approved new positions in 
my office, I am prepared to take a more active, more aggressive 
role in assuring chemical-biological defense readiness, in 
addition to maintaining my primary responsibilities, which are 
those in the research, development and acquisition arena.
    I look forward to continuing improvements in this critical 
program of chemical-biological defense.
    [The prepared statement of Dr. Johnson-Winegar follows:]

    [GRAPHIC] [TIFF OMITTED] T2288.046
    
    [GRAPHIC] [TIFF OMITTED] T2288.047
    
    [GRAPHIC] [TIFF OMITTED] T2288.048
    
    [GRAPHIC] [TIFF OMITTED] T2288.049
    
    [GRAPHIC] [TIFF OMITTED] T2288.050
    
    Mr. Shays. Thank you for your statement.
    General.
    General Sylvester. Mr. Chairman, members of the committee, 
I am Major General John B. Sylvester. I am the Deputy Chief of 
Staff for Training in the U.S. Army Training and Doctrine 
Command [TRADOC], from Fort Monroe, VA. I appreciate the 
opportunity to represent TRADOC and the U.S. Army and provide 
testimony on this important subject.
    TRADOC has two primary missions: To prepare the Army for 
war and to be the architect of its future. TRADOC ensures 
synchronization of doctrine, training, leader development, 
organizational structure and materiel readiness and ensures the 
Army is the best that it can be and that our soldiers are 
trained and ready for any operation anywhere any time.
    TRADOC, therefore myself representing TRADOC, am 
responsible for institutional, unit and self-developmental 
training programs for all soldiers, leaders, civilians and 
units across our service. We provide a progressive, 
developmental and lifelong learning experience for leaders and 
soldiers that complements and enhances and supports their 
experiences in the field. My direct scope of responsibility is 
staff supervision of all of our schools, to include the U.S. 
Army Chemical School at Fort Leonard Wood, MO, as well as 
individual training of active duty, reserve component and 
international military student personnel as well as providing 
support to units in the field through training support doctrine 
and also our capstone training program, known as the combat 
training centers, which provide support across our force.
    I'm a combat veteran. I've been deployed into combat in 
combat zones on four different times in almost 33 years of 
continuous active duty. I've commanded at every level from 
platoon through assistant division command, and I have operated 
as an operations officer up through theater level command, and, 
sir, I stand ready to answer your questions.
    [The prepared statement of General Sylvester follows:]

    [GRAPHIC] [TIFF OMITTED] T2288.051
    
    [GRAPHIC] [TIFF OMITTED] T2288.052
    
    [GRAPHIC] [TIFF OMITTED] T2288.053
    
    [GRAPHIC] [TIFF OMITTED] T2288.054
    
    [GRAPHIC] [TIFF OMITTED] T2288.055
    
    [GRAPHIC] [TIFF OMITTED] T2288.056
    
    [GRAPHIC] [TIFF OMITTED] T2288.057
    
    [GRAPHIC] [TIFF OMITTED] T2288.058
    
    [GRAPHIC] [TIFF OMITTED] T2288.059
    
    Mr. Shays. Thank you.
    General.
    General Robbins. Mr. Chairman, good afternoon. I appreciate 
the opportunity to come before you today and discuss the 
Department of the Air Force's Nuclear, Biological and Chemical 
Passive Defense Program. I thank you for your continued support 
of the NBC defense program. I have a brief oral statement and 
with your permission I will submit the complete statement for 
the record.
    First, I want to explain the Air Force organizational 
structure which supports our NBC defense program. The Deputy 
Chief of Staff for Air and Space Operations, referred to as our 
XO, is responsible for the Air Force's Counterproliferation 
Program. Nuclear, biological and chemical passive defense is 
one of the four pillars of our counterproliferation policy. So 
the XO is the principal Air Force officer responsible for our 
participation in the OSD Chemical and Biological Defense 
Program. The XO is the Air Force representative on the Joint 
NBC Defense Board.
    As the Air Force Civil Engineer, I support the XO. I am the 
Air Force representative on the Joint Service Integration Group 
and I am responsible for the nonmedical training and equipment 
aspects of the Air Force NBC Passive Defense Program. I 
represent the Air Force in joint NBC training doctrine and 
requirements development. I'm supported in this effort by the 
Director of Supply, who is responsible for individual 
protective equipment management as part of the overall Air 
Force supply system, including shelf life management.
    The Defense Planning Guidance recently described the NBC 
threat as a likely condition of future wars, and the Air Force 
is committed to ensuring that our forces can and will survive 
to conduct sustained mission operations in such an NBC 
environment. In order to accomplish this we have established a 
comprehensive program.
    The Air Force participates with OSD and the Joint NBC 
Defense Board for research, development and initial acquisition 
of avoidance and detection, decontamination, collective 
protection and individual protection equipment. We work with 
the other services and OSD to identify joint requirements to 
meet future threats and to ensure the safety of all DOD forces. 
With congressional support we have seen funding for these 
programs increase in recent years to meet the growing threat.
    Each service is responsible for sustainment and maintenance 
of their equipment as well as for training our respective 
personnel. Within available resources we prioritize our 
requirements to reduce risks and to ensure we provide 
protection to our personnel in high and medium threat 
locations.
    The Air Force's NBC Defense Sustainment Program provides 
operation and maintenance funding for protective ensembles and 
masks, protection and decontamination equipment, medical 
supplies, collective protection systems and training. Like the 
other services, we are currently transitioning from older 
equipment to newer, lighter, more effective equipment and are 
adjusting our training as we bring this new equipment into the 
inventory.
    The Air Force requires all military and emergency essential 
civilian personnel stationed in or deployable to high and 
medium threat locations to receive annual NBC defense training. 
This training includes classroom and hands on instruction on 
detection and decontamination equipment and procedures, 
protective clothing, mask component familiarization, inspection 
and wear.
    The Air Force enhanced the protective mask portion of 
training in 1998 by implementing the mask fit test, which 
improves survivability and increases the individual airman's 
confidence. The Air Force established a robust training course 
of instruction on mask fit test operations at our technical 
school with the Army at Fort Leonard Wood, MO and at Brooks Air 
Force Base, TX. Technicians there provide instruction and 
perform fit test training for unit level personnel.
    Equipment maintenance checks and services are critical 
elements of our NBC defense program, especially for individual 
protective equipment. Frequent inspections and maintenance of 
masks are required to ensure their reliability. Maintenance and 
inspections are conducted on Air Force protective masks every 6 
months during peacetime and every 7 days during contingency 
operations. Except for visual procedures outlined in the mask 
technical orders, the Air Force has no inherent capability to 
perform detailed quantitative masks inspections.
    The need for this capability led us to participate in a 
Joint Service Mask Program sponsored by the Marines. Based on 
the Joint Service Mask Working Group's recommendations and its 
review of the 1994 DOD IG report focusing on mask maintenance, 
the Air Force initiated a rewrite of our technical orders. This 
rewrite, which is scheduled for completion in August of this 
summer, enhances procedures to tighten loose front voicemitters 
and to clean the mask, it increases emphasis on individual 
inspections and clarifies the responsibility for mask care and 
maintenance. The Air Force is also reviewing and updating 
various instructions and lesson plans to improve procedures for 
mask maintenance and inspection.
    In conclusion, Mr. Chairman, I want to thank you for your 
strong support of the overall OSD and Air Force NBC Passive 
Defense Program. We believe it is an aggressive program that 
capitalizes on cooperation among the services to develop and 
procure new high-tech protective equipment. We believe our 
sustainment and training programs are meeting the most pressing 
needs of our forces and that we carefully balance fiscal 
reality, equipment shortfalls and risks. Our goal, like yours, 
is to ensure Air Force men and women are protected with the 
very best equipment.
    I'll be happy to answer any questions.
    [The prepared statement of General Robbins follows:]

    [GRAPHIC] [TIFF OMITTED] T2288.060
    
    [GRAPHIC] [TIFF OMITTED] T2288.061
    
    [GRAPHIC] [TIFF OMITTED] T2288.062
    
    [GRAPHIC] [TIFF OMITTED] T2288.063
    
    [GRAPHIC] [TIFF OMITTED] T2288.064
    
    [GRAPHIC] [TIFF OMITTED] T2288.065
    
    [GRAPHIC] [TIFF OMITTED] T2288.066
    
    [GRAPHIC] [TIFF OMITTED] T2288.067
    
    Mr. Shays. Thank you very much, General.
    Admiral stone.
    Admiral Stone. Good morning, Mr. Chairman, distinguished 
members of the subcommittee. On behalf of Secretary Danzig, I 
would like to thank you for the opportunity to appear here 
today to discuss the Navy's efforts to provide, maintain and 
train with specialized individual protective equipment. 
Unquestionably, the integrated performances of these items are 
essential to ensure we can successfully operate in contaminated 
chemical and biological environments.
    As a matter of background, I am surface warfare officer, 
having commanded the Spruance class destroyer the USS John 
Hancock from 1991 to 1993. I was stationed overseas from 1994 
to 1999, with at sea assignments as Commander of the United 
States Middle East Force and Commander of Destroyer Squadron 
50, home ported in Manama, Bahrain; later as the Chief of 
Staff/Commander of the Sixth Fleet, located in Gaeta, Italy; 
and most recently have served as the Commander of NATO's 
Immediate Reaction Force, Standing Naval Force, Mediterranean, 
during Operation Allied Force in the Adriatic. My current 
office, which is the Surface Warfare Directorate on the Navy 
staff, serves as the Chief of Naval Operations Executive Agent 
for Chem-Bio Defense, and in that capacity, we coordinate 
relevant Navy programmatic and operational issues.
    As you are well aware, this is a complex effort involving 
multiple warfare areas and claimants that directly impact fleet 
operational readiness and warfighting sustainability. The 
unique aspects posed by the myriad of chem-bio threats presents 
us with incredible challenges, both ashore and afloat.
    As a proactive partner in the Joint Chem-Bio Defense 
Program, we've made significant progress and continue to work 
closely with the other services and OSD on a broad front.
    I'm submitting a more detailed written response to your 
committee as formal testimony.
    Today I plan to provide you details on the status of 
important personnel protection initiatives and related efforts 
in support of the Joint Service Chem-Bio Defense Program. In 
particular I will address individual protective equipment and 
associated testing, training and maintenance evolutions used to 
verify equipment will perform as advertised without 
compromising personal safety.
    The goal of the Navy Chem-Bio Defense Program is to deter 
the use of chemical and biological weapons used against U.S. 
allies and coalition forces by utilizing capabilities to deny 
an adversary significant military advantage from their use. 
From a deterrence perspective, essential capabilities need to 
include the requirement to survive an initial attack and 
continue operations in a contaminated environment.
    The mission of our Navy is to conduct prompt and sustained 
combat operations from the sea in support of national 
objectives. The Navy ensures that deployed units are outfitted 
with appropriate individual protective equipment.
    Based on the concerns expressed by your committee, we 
acknowledge the importance of inventory management and materiel 
condition of our chem-bio equipment. Since the first DOD IG 
reports regarding the deficiencies in the inventory process 
were issued in 1994, the Navy has consistently reviewed its 
procedures for inventory control, requisitions and 
organizational functions to ensure that we are on track.
    As a follow on to various IG reports, the Navy has 
addressed the mask surveillance issue with Commander Destroyer 
Squadron 28, conducting surveillance of the ships earlier this 
year in Norfolk, VA. The fleet is also preparing to release an 
updated message that provides important guidance and reinforces 
the requirement for conducting proper periodic maintenance. 
Additionally, since February of this year, a pilot program has 
been under development by CINCLANTFLT with the goal of 
assisting ships in their predeployment mask testing.
    The Navy agrees that mask inspection and fit testing is an 
integral part of operational readiness. Studies have been 
conducted over the past several years to ascertain materiel 
problems with the MCU mask series. Random surveillance has 
taken place to assess the conditions of the masks. We are 
satisfied that our surveillance efforts have provided us good 
confidence of the materiel integrity of the masks. However, 
increased emphasis on individual protection equipment 
maintenance is essential to ensure that these items will 
function as advertised.
    With regard to shipboard stowage of individual protective 
equipment, we have reviewed previous Joint Service Integration 
Group recommendations and have directed operational units to 
ensure compliance with existing stowage procedures.
    On the training side, it is critical that all forces, 
afloat and ashore, be intimately familiar with the use of 
individual protective equipment. Fleet units conduct chem-bio 
drills and exercises to train and evaluate sailors in the use 
of our protective gear. Ultimately, commanding officers are 
responsible for chem-bio readiness of their commands. Navy 
units conduct basic, intermediate and advanced training 
exercises as part of the training and readiness cycle prior to 
deployment.
    During the basic training phase, CBR-D training exercises 
are often overseen by the appropriate type commander staff and 
may involve additional unit training by specialists from an 
afloat training group. During the intermediate and advanced 
phases of the training cycles, combat readiness is reinforced 
through composite training units and numbered fleet exercises. 
The exercises conducted by deploying battle groups and 
amphibious readiness groups during these predeployment periods 
are designed to meet fleet commander in chief training 
requirements for forces in the area that they will be deployed.
    I have recently released a Chief of Naval Operations 
message to Navy commands reiterating the vital importance of 
proper maintenance, training and readiness of all chem-bio 
individual protective equipment, particularly protective masks. 
This message lays the groundwork for follow-on discussions at 
our upcoming damage control chem-bio defense conference, which 
is scheduled for September of this year in the Norfolk area.
    In summary, I believe the Navy has a chem-bio defense 
program in place to protect our warfighters. As my partners on 
this panel have indicated, our mutual efforts form an integral 
part of this Nation's chem-bio defense posture. Of paramount 
importance is my commitment to you to provide our sailors the 
best individual protective gear available as well as the 
aggressive leadership and training and monitoring necessary for 
meeting the difficult mission challenges ahead.
    Thank you, sir, for this opportunity to present the Navy's 
position on this very important topic. I look forward to 
addressing any questions you may have at this time.
    [The prepared statement of Admiral Stone follows:]

    [GRAPHIC] [TIFF OMITTED] T2288.068
    
    [GRAPHIC] [TIFF OMITTED] T2288.069
    
    [GRAPHIC] [TIFF OMITTED] T2288.070
    
    [GRAPHIC] [TIFF OMITTED] T2288.071
    
    [GRAPHIC] [TIFF OMITTED] T2288.072
    
    Mr. Shays. Thank you very much, Admiral.
    General.
    General Lee. Good morning, distinguished members of the 
committee.
    Mr. Shays. Let me just make sure that mic is on. You want 
to tap it. Yeah, it's dead. Why don't you see if Admiral 
Stone's mic is working.
    General Lee. Let me start again. Is that better, sir?
    Mr. Shays. Thank you.
    General Lee. Good morning, Mr. Chairman, distinguished 
members of the committee. My name is Major General Paul Lee. I 
am the Commanding General of the Marine Corps's Materiel 
Command. My job is readiness. My job is in the equipment of the 
U.S. Marine Corps. I have been designated by the Commandant as 
the responsible agent for life cycle management of all ground 
combat equipment and in particular, with the subject equipment 
of this particular committee, the individual equipment, the 
nuclear-biological equipment that is issued to our Marines, 
both ground and air. This means that I have the responsibility 
for the reliability and the maintainability of all equipment 
and for any new acquisitions that the U.S. Marine Corps may be 
doing in its joint environment for all of the services.
    As well, I am concerned about the training because that's 
all part of it and the kinds of training manuals and 
maintenance manuals and their adequacy for all of our forces. 
My job is to maintain continuous surveillance and to make sure 
that that gear remains ready, that the Marines who handle it 
know how to handle it, and that those maintenance specialists 
can make that happen. We have placed responsibility in materiel 
command and we have provided it with the sufficient tools to 
maintain that oversight throughout the Corps, to make things 
happen quickly as they need to happen.
    There are five areas that I will be able to answer 
questions and I welcome questions in areas of concern with NBC. 
I mentioned very briefly about training manuals and our 
training--and our tables of organization, the people that do 
the work, and we--I am here to report to you that we have taken 
giant strides toward the improvement of those training manuals, 
providing up to the date manuals which are easy to understand 
for our individual Marines, soldiers, sailors or airmen who can 
pick these up and know what it is they have to do to preserve 
the integrity of their masks. We are providing videos, and they 
will be out this summer, which will engage our people in 
something that is easy to view and easy to understand.
    We have reviewed all of our tables of organizations in for 
NBC specialists. We are manned at over 100 percent of our table 
of organization, and I am satisfied that we have a sufficient 
number of Marines dedicated down to the unit level, that is 
down to the battalion level, to accommodate the charges and 
responsibilities and execute those responsibilities.
    We have reemphasized training. In fact, as we speak today, 
our training command at Quantico, VA, there is a group looking 
at training one more time, is it adequate across the board from 
the beginning when they come in, officer and enlisted alike, 
and then that continuous training which keeps them all current 
up until the day they walk out the door.
    We have looked at leadership. I feel that that's where it 
all starts, emphasis from our commanders, the guys in charge, 
and as you can see from my earlier statements, the Commandant 
has put a great deal on this by saying I have got one belly 
button to push and that belly button is my materiel commander 
who is going to ensure that it gets taken care of.
    We have instituted reporting, surveillance and 
accountability procedures with the hope to gain total asset 
visibility throughout the Marine Corps through an automated 
system that will be Web based by August of this year.
    And finally, on the way ahead, my program managers in the 
Marine Corps Systems Command are purchasing the best gear. We 
have built in reliability and maintainability as primary. We 
have taken all these reports that have been given to us and 
have talked about here this morning on what kind of gear we 
need to put in their hands, and that's being incorporated and 
these buys made.
    I thank you for this opportunity here, sir. I'm a 31-year 
logistician in the U.S. Marine Corps. I have seen the good, the 
bad and the ugly, quite frankly, in this area of NBC. I think 
we're on the right road. I know we are. It has the emphasis I 
can assure you in the U.S. Marine Corps of protecting our 
Marines and all service people from the dangers that NBC 
presents to them and while at the same time ensuring the 
readiness of all forces, and I'm ready to answer any specific 
questions you may have.
    [The prepared statement of General Lee follows:]

    [GRAPHIC] [TIFF OMITTED] T2288.073
    
    [GRAPHIC] [TIFF OMITTED] T2288.074
    
    [GRAPHIC] [TIFF OMITTED] T2288.075
    
    [GRAPHIC] [TIFF OMITTED] T2288.076
    
    [GRAPHIC] [TIFF OMITTED] T2288.077
    
    [GRAPHIC] [TIFF OMITTED] T2288.078
    
    [GRAPHIC] [TIFF OMITTED] T2288.079
    
    [GRAPHIC] [TIFF OMITTED] T2288.080
    
    [GRAPHIC] [TIFF OMITTED] T2288.081
    
    [GRAPHIC] [TIFF OMITTED] T2288.082
    
    [GRAPHIC] [TIFF OMITTED] T2288.083
    
    Mr. Shays. Thank you very much. I thank all of you. I 
appreciate the general tone of all your comments. My wife's 
uncle is a colonel in the Army, and he sometimes expressed his 
differences with the Marines. So I don't want to get in the 
battle in terms of who's doing it better or not, but to say 
that in the research that we've done, it appears the Marines 
have started a little earlier on this project of trying to get 
their act together and that we can learn some--the other 
services can learn some very beneficial things from what the 
Marines have done. So I do want to say that for the record.
    I also want to say that I care frankly less about the past 
than the future. I did want to put on the record the IG's 
report of 1994 and to at least acknowledge that their study had 
been validated because I think it's important when it has, it 
should be in, and frankly if the PAT had come up with another 
conclusion I would have been happy to say the reverse.
    I just need to know from each of you whether you accept the 
final report of the Mask Surveillance Process Action Team of 
November 15th both in terms of its findings and 
recommendations, and I'm going the start with you, Dr. Winegar.
    Dr. Johnson-Winegar. Yes, I do accept the report from the 
Process Action Team in terms of its findings. In terms of its 
recommendations, we are not ready at this point to make a final 
determination on how the individual services will be able to 
implement those. As I mentioned in my opening comments, I'm at 
this point awaiting the specifics from each of the services, 
and at that time I'll be able to comment on that.
    Mr. Shays. General Sylvester.
    General Sylvester. Sir, I would say that being a General of 
course I accept the findings wherein they talk about the lack 
of maintenance and lack of leadership, etc. There are two areas 
where I believe that we have some disconnect. The first is in 
the area of the M-41 PATS device and whether or not----
    Mr. Shays. Talk a little slower.
    General Sylvester. And whether or not that device provides 
us the ability along with preventive maintenance checks and 
services, conducted properly and supervised properly, provides 
us a degree of comfort that the protective masks will protect 
the soldier should he or she be introduced into an environment 
where there is a requirement to be protected. Their findings 
suggests that that is, quote, questionable, and we say indeed 
it is. We believe that the combination of PMCS and that device 
used by an appropriately trained individual gives us a degree 
of assurance that that protective mask will indeed work in 
conditions of a hazardous environment. An example of that is 
that those two devices; i.e., properly conducted PMCS, 
preventive maintenance checks and services, and the M-PATS 
patch device are the two means by which all protective masks 
are checked prior to soldiers going into the chemical defense 
training facility, the live agent training facility located out 
at Fort Leonard Wood. 54,000 soldiers have gone through that 
facility protected by the protective masks that we have issued 
today and those two means of checking that protective mask 
without failure, without anyone being affected in any way by 
chemical agent. I was told the only accident that has ever 
occurred out there was when someone slipped in the shower and 
hurt themselves.
    Mr. Shays. I'm not anticipating we have to be here a long 
time, but I am going to want to be clear. I'm assuming that all 
of you have the final report. Do you have it all in front of 
you? General Robbins? I am interested to know--well, I think I 
erred, General Sylvester, in--first off, do you all concur that 
this was a proper study?
    General Robbins. Yes, sir.
    General Sylvester. Yes.
    Admiral Stone. Yes, sir.
    General Lee. Yes, sir.
    Mr. Shays. So we are not going to get a dispute with the 
validity of the finding, and I'm going to make an assumption 
that in a report--in an investigation of the conditions of the 
masks that to find out of 19,218 that 10,322 were found 
critical, critically defective, that that is totally 
unacceptable, and I'm going to make an assumption that we all 
agree on that so we don't have to debate that issue.
    So some of what you said to me, it's not your fault, 
General Sylvester, it went over my head a little bit and I 
don't want to get back to it. It's not your fault, mine. But 
there are specific recommendations, in some cases some best 
business practices by one service that could help the others, 
but there are specific recommendations, and I'm interested to 
know if the recommendations that affect each and every one of 
the branches here, whether we can agree that you agree that you 
need to follow these recommendations, and if you don't, I want 
you to cite the specific page of the recommendation that you 
disagree with and don't intend to follow. Otherwise I'm going 
to make the assumption that you agree with every recommendation 
and that you intend to do what the recommendations say.
    Now, there could be another caveat, you agree with the 
recommendations but you don't feel you have the capability of 
fulfilling them, and then I need to know. The committee needs 
to know. In other words, I never appreciate someone from the 
executive branch or the military, whatever, who says 
everything's fine and then I find out later they didn't have 
the personnel, the equipment, the money to do the job. If you 
don't have the financial resources or the personnel to carry 
out these recommendations but you agree with them, then I want 
to know that, too.
    So let me just say, I'll throw it open in general. I'm 
going to assume that all of you agree with the recommendations 
as it pertains to your service unless you specifically point 
out a recommendation you disagree with, and after we've done 
that I'm going to then say, I'm going to ask a question about 
whether you would be able to carry out the recommendation. Is 
there any you would like to question, verify, qualify in any 
way? Take a look.
    General Robbins. I'm comfortable with it.
    Mr. Shays. Admiral.
    Admiral Stone. Sir, comfortable.
    Mr. Shays. General Lee.
    General Lee. I'm comfortable with it with the exception of 
the recommendation that we add an NBC specialist to our FASMO 
teams.
    Mr. Shays. And that recommendation, can you cite the 
recommendation?
    General Lee. It's near the end. It's on page 7, sir. The 
problem it says is that the headquarters for USMC staff each 
FASMO team with an NBC defense specialist staff NCO or officer.
    Mr. Shays. And you don't feel that it is necessary, and the 
recommendation there is what?
    General Lee. Well, each one of our--they recommend that we 
assign one but each one of our FASMOs are located at every one 
of our major installations, our fleet stock, our field supports 
units analysis office, and when--at each one of the battalions 
and each one of the divisions and the wings, etc. They all have 
one officer and three staff NCOs, and every time they go down 
to look at a unit, they take that team down with them. So 
they're already there and these folks already are assigned when 
we do the individual and yearly inspections. So it seemed to us 
to be redundant and extra structure that's unnecessary.
    Mr. Shays. OK. But that's the only one that you take----
    General Lee. Yes, sir.
    Mr. Shays. Admiral, you said fine. General Robbins.
    General Sylvester. Sir, I have only one and that is the 
recommendation on page 9 of the study wherein it recommends 
that centralized storage and maintenance and maintenance NBC--
--
    Mr. Shays. I don't have page 9.
    General Sylvester. Oh, sorry, sir.
    Dr. Johnson-Winegar. The last page, page 8.
    General Sylvester. My page 9, your page 8, sir.
    Mr. Shays. OK. Sure. Start over again, please.
    General Sylvester. Under paragraph D, service specific 
problems, subparagraph----
    Mr. Shays. Believe it or not, I don't have that. I don't 
know why.
    General Sylvester. Sir, there is a recommendation which 
states, ``that centralized storage and maintenance and 
maintenance NBC rooms be reestablished in the United States 
Army.''
    Mr. Shays. I have a D on page 7, the identification and 
maintenance management shortfalls. That's not what you're 
referring to. Oh, I'm sorry. OK. So recommendation of 
centralized storage and maintenance.
    General Sylvester. So with respect to the recommendation 
that we reestablish centralized storage maintenance facilities 
for masks, we believe that that is not a measure which we care 
necessarily to take across the board of the U.S. Army. There is 
application in certain organizations for that. There is 
certainly not application in others, and it takes away the 
responsibility of the individual soldier, his immediate 
supervisor and the chain of command for ensuring that the 
proper preventive maintenance checks and services of the 
individual's protective gear is maintained in the same manner 
as it would be were it his rifle or any other element of 
personal equipment.
    Mr. Shays. Is there any of these--so that's one 
qualification from you, General Sylvester, and you as well, 
General Lee, and let me say, in dialog with your comrades, if 
you need to qualify or look at any other recommendation, we'd 
like to give you like 3 days to go through that and get back to 
us. If we don't hear from you in 3 days, then we'll assume that 
everything we said here is the final word.
    Is there any recommendation--I'm going to get--Doctor, yes, 
what would you like to say?
    Dr. Johnson-Winegar. I have one recommendation that I don't 
agree with if it is my turn.
    Mr. Shays. Yes, it is.
    Dr. Johnson-Winegar. On the general recommendations----
    Mr. Shays. On page?
    Dr. Johnson-Winegar. The last page, paragraph E, general 
recommendations. The second recommendation suggests that the 
Office of the Secretary of Defense establish a separate funding 
line for mask surveillance, and I would respectfully disagree 
with that recommendation maintaining that it is appropriate for 
the services to maintain individual funding with my office 
providing the requisite oversight that they do so.
    Mr. Shays. We'll so note that. Is there any recommendation 
that you do not have the capability of carrying out or you have 
the capability and either lack of personnel or financial that 
you need to let us know, while you agree with the 
recommendation, you're just not sure you could carry it out? 
General Robbins.
    General Robbins. Sir, there's only one Air Force.
    Mr. Shays. Air Force is a tiny planet and you're looking at 
the clock.
    General Robbins. That's OK, sir. But we have met the 
direction given by the Joint Chiefs on that one item. So we're 
very comfortable with it. I would add to what was just stated 
that it's the--it's not the surveillance system in terms of the 
procedures of mask surveillance that concerns us. It is the 
equipment. As I stated in my statement, we rely on the Marine 
Corps to help us test masks and there is an item in the 
unfunded portion of the program for a Joint Service Mask Leak 
Detector. As I understand, it's totally unfunded. So until we 
get that, we're going to continue to rely on the Marines to 
assist us.
    Mr. Shays. In my travels to all four services in the last 2 
years plus, I have appreciated the cooperation that exists 
among the services, which is encouraging me as a civilian to 
see that and as a Member of Congress.
    Dr. Winegar, you have something in your statement that 
obviously pleased me to death. It wasn't in your original 
statement. It talked about coordination, and I'd like you to 
just make that point again. I was trying to find it as you were 
reading, and it talked about a greater effort to coordinate, 
and can you just go over that statement again with me. It is 
not in my own.
    Dr. Johnson-Winegar. Yes, sir. That was in addition to my 
written statement that I had provided, and the comment that I 
was making was that there are a number of offices within the 
OSD, the Secretary of Defense level, that have an interest and 
primary responsibility for some aspect of chemical-biological 
defense, and I wanted to emphasize that I think there's a great 
deal of effort being put in by all of those individuals to 
assure coordination across the various areas of responsibility 
and as well with the Joint Staff and the individual services.
    Mr. Shays. Yes. You didn't say it as succinctly this time 
as last time. I liked the way you said it better last time.
    Dr. Johnson-Winegar. I read it the first time. So if you 
can tell me whether it was near the beginning, the middle or 
end.
    Mr. Shays. It was near the end. It talked about your adding 
to staff to improve coordination. Wouldn't you have known that 
that would have pleased me a bit?
    Dr. Johnson-Winegar. Yes, sir. Yes, sir.
    Mr. Shays. And I don't mean please me, but the bottom line 
is----
    Dr. Johnson-Winegar. It sends a positive message.
    Mr. Shays. You have said in previous testimony ``I have 
responsibility for coordinating the Department's chemical and 
biological defense program. My job is to bring all these 
disparate groups together so they can have a coordinated 
effort.'' You have in the past tried to emphasize that if you 
don't have budgetary control you don't have control, and our 
concern is that there be someone from DOD that can help 
coordinate the response to chemical and biological, and I kind 
of felt that you were having a greater emphasis on this role 
that I think all the services obviously would benefit from, and 
so if you would just make that point.
    Dr. Johnson-Winegar. Yes, sir. I wanted to emphasize that 
the primary responsibility from my office is in the area of 
research, development and acquisition of programs. But, with 
the relatively recent approval of some new positions, and I 
have recruited some new staff to come into my office, I'm 
prepared to take a more active, aggressive role in assuring 
chemical-biological defense readiness in addition to other 
components of chemical-biological defense issues.
    Mr. Shays. And that has the approval of those--your 
superiors and so on?
    Dr. Johnson-Winegar. Yes, sir. Those were the people that 
authorized me to hire additional people into my office and I 
think that that attests also to their interest and support in 
this area.
    Mr. Shays. This committee has responsibility for terrorism 
at home and abroad. We don't authorize legislation, we don't 
appropriate money but we are the only committee, obviously the 
Intelligence Committee, but we are the only standing committee 
that basically has the responsibility of looking at terrorism 
at home and abroad, and we're spending a lot of our time 
looking at biological, chemical and in some cases nuclear 
response, and the thing that obviously is of course is that 
there is a disjointed effort where we don't maximize the 
benefits of all the services and coordinate, and I think it's 
absolutely imperative, Dr. Winegar, that you accept that role, 
and I'm pleased that you have support from your superiors to be 
more forceful in that effort.
    Let me say this, there's only one comment, and I'm almost 
inclined not to bring it up, other than to say that if you give 
me permission, General Sylvester, I'll not be concerned by this 
comment and we can leave it at that, and that is--actually it's 
your comment, Dr. Winegar, and it is also General Ellis' and 
that is this comment, there is no indication of extensive mask 
degradation over time or through field usage other than through 
wear and tear, which is exacerbated by the lack of field and 
fleet maintenance. I just want to know that I don't have to 
interpret this as trying to minimize, and we can leave it at 
that, the study, the significance of the study of the final 
Mask Surveillance Process Action Team.
    Dr. Johnson-Winegar. You're correct in your assumption.
    Mr. Shays. We will leave it at that. General Sylvester, 
could I just get rather than a visual response, could I--you're 
familiar with this comment. I just want to put it in proper 
perspective. I should not interpret that--I shouldn't interpret 
General Ellis' statement that is identical to Dr. Winegar's 
that that is in any effort to minimize the serious findings of 
the study?
    General Sylvester. Absolutely not, sir.
    Mr. Shays. We will leave it at that. Is there any comment 
that any of you would like to make. General, I'm getting you 
out a little later, but I thought I could let you go with the 
crowd. Is there any comment that any of you would like to make 
in closing? I thank you all for your cooperation, and we look 
forward to seeing some great improvement in this area. Thank 
you very much.
    [Whereupon, at 1:35 p.m., the subcommittee was adjourned.]


</pre></body></html>
